1a
APPENDIX A
[FILED: December 3, 2019]
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

STEVE RAY EVANS,
Plaintiff Appellant,
v.
SANDY CITY, a
municipal corporation;
TIM DOLAN, Mayor of
Sandy City; KEVIN
THACKER, Sandy City
Police Chief; ROBERT
WALL, Sandy City
Attorney; DOUGLAS
JOHNSON, Sandy City
Prosecutor; R. MACKAY
HANKS, Sandy City
Prosecutor; SCOTT
COWDELL, Sandy City
Council Member;
MAREN BARKER,
Sandy City Council
Member; KRISTIN

No. 17-4179
(D.C. No. 2:17-CV00408-BSJ)
(D. Utah)

2a
COLEMAN- NICHOLL,
Sandy City Council
Member; CHRIS
MCCANDLESS, Sandy
City Council Member;
STEVE FAIRBANKS,
Sandy City Council
Member; LINDA
MARTINEZ SAVILLE,
Sandy City Council
Member; STEPHEN P.
SMITH, Sandy City
Council Member; C.
TYSON, Sandy City
Police Department; C.
PINGREE, Sandy City
Police Department; J. E.
BURNS, Sandy City
Police Department;
JOHN DOE I-XX, Sandy
City Police Department,
Defendants Appellees.

ORDER
Before BRISCOE, BALDOCK, and EID, Circuit
Judges.

3a
This matter is before the court on the appellant’s
Petition for Rehearing En Banc. We also have a
response from the appellees. In addition, also before
the court is a motion from the ACLU Foundation of
Colorado and related entities seeking leave to file a
brief amicus curiae in support of en banc rehearing.
As a preliminary matter, and upon consideration,
we grant the motion submitted by the ACLU to file a
brief amicus curiae. The brief received originally on
August 26, 2019 will be shown filed on the docket
effective the original date of submission.
Upon consideration of the rehearing request, and
pursuant to the panel’s inherent authority, the court
sua sponte grants panel rehearing to the extent of the
changes made in the attached revised opinion. A
revised dissent is likewise attached to this order. The
clerk is directed to reissue the revised decision and
dissent effective today’s date.
The Petition, response, and the revised opinion and
dissent were also circulated to all the judges of the
court in regular active service who are not otherwise
disqualified. See Fed. R. App. P. 35(a). As no judge
on the original panel or the en banc court requested
that a poll be called, the Petition for Rehearing En
Banc is denied.

Entered for the Court

ELISABETH A. SHUMAKER, Clerk

4a
[FILED: December 3, 2019]
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

STEVE RAY EVANS,
Plaintiff Appellant,
v.
SANDY CITY, a
municipal corporation;
TIM DOLAN, Mayor of
Sandy City; KEVIN
THACKER, Sandy City
Police Chief; ROBERT
WALL, Sandy City
Attorney; DOUGLAS
JOHNSON, Sandy City
Prosecutor; R. MACKAY
HANKS, Sandy City
Prosecutor; SCOTT
COWDELL, Sandy City
Council Member;
MAREN BARKER,
Sandy City Council
Member; KRISTIN
COLEMAN-NICHOLL,
Sandy City Council

No. 17-4179

5a
Member; CHRIS
MCCANDLESS, Sandy
City Council Member;
STEVE FAIRBANKS,
Sandy City Council
Member; LINDA
MARTINEZ SAVILLE,
Sandy City Council
Member; STEPHEN P.
SMITH, Sandy City
Council Member; C.
TYSON, Sandy City
Police Department; C.
PINGREE, Sandy City
Police Department; J.E.
BURNS, Sandy City
Police Department;
JOHN DOE I-XX, Sandy
City Police Department,
Defendants Appellees.

Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:17-CV-00408-BSJ)
Angela H. Elmore, Utah Legal Clinic Foundation
(John Robinson, Jr., The Law Office of John Robinson,
Jr., with her on the brief), Salt Lake City, Utah, for
Plaintiff-Appellant.

6a
Troy L. Booher, Zimmerman Booher (Freyja R.
Johnson, Zimmerman Booher; Michael D. Black, Parr
Brown Gee & Loveless; David C. Reymann, Parr
Brown Gee & Loveless, with him on the brief), Salt
Lake City, Utah, for Defendants-Appellees.
Before BRISCOE, BALDOCK, and EID, Circuit
Judges.
BALDOCK, Circuit Judge
In 2016, the Sandy City, Utah city council adopted
an ordinance making it illegal for any person “to sit or
stand, in or on any unpaved median, or any median of
less than 36 inches for any period of time.” Sandy City
Traffic Code, Article 16, Section 299.1 (the
Ordinance). After the Sandy City council adopted the
Ordinance, Plaintiff-Appellant Steve Ray Evans
received four citations for violating the Ordinance
when he stood on narrow or unpaved medians. Evans
filed suit against the City and many of its officials
under 42 U.S.C. § 1983 in the district court of Utah,
alleging the Ordinance is facially invalid because it
violates the First Amendment right to free speech.
Evans also asked the district court to grant his
request for a preliminary injunction. The City filed a
motion for summary judgment and the court allowed
discovery. After a hearing on the motion, the district
court denied Evans’ preliminary injunction and
granted summary judgment in favor of the City
because the Ordinance was a valid time, place, or

7a
manner restriction on speech. 1 Evans appealed,
arguing the district court incorrectly applied the time,
place, or manner standard and wrongly granted
summary judgment because the City did not satisfy
its evidentiary burden. Exercising jurisdiction under
28 U.S.C. § 1291, we affirm.
I.
We review a district court’s summary judgment
ruling de novo, applying the same standard as the
district court. iMatter Utah v. Njord, 774 F.3d 1258,
1262 (10th Cir. 2014).
Summary judgment is
appropriate “if the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). In reviewing a motion for
summary judgment, “we review the facts and all
reasonable inferences those facts support, in the light
most favorable to the nonmoving party.” iMatter, 774
F.3d at 1262 (citation omitted). Because this decision
implicates First Amendment freedoms, we perform an
independent examination of the whole record in order
to ensure that the judgment protects the right of free
expression. Faustin v. City and Cty. of Denver, 423
F.3d 1192, 1196 (10th Cir. 2005). Here, the City
carries the burden to justify the Ordinance with
uncontested facts. See iMatter, 774 F.3d at 1263.

Mr. Evans also alleged the Ordinance violated the Eighth
Amendment, the Fourteenth Amendment Equal Protection
Clause, the Dormant Commerce Clause, and Title VII of the Civil
Rights Act. The district court dismissed each of Evans’ claims
with prejudice and granted summary judgment in favor of the
City. Mr. Evans does not appeal any of those claims.
1

8a
II.
Today, we confront whether the Ordinance, which
prohibits the sitting or standing on medians that are
unpaved or less than 36 inches wide (hereinafter
“affected medians”), violates the First Amendment.
The First Amendment, applicable to the States
through the Fourteenth Amendment, prohibits the
enactment of laws “abridging the freedom of speech.”
U.S. Const. amend. I. The First Amendment “applies
not only to legislative enactments, but also to less
formal governmental acts, including city policies,”
such as the Ordinance at issue. Hawkins v. City and
Cty. of Denver, 170 F.3d 1281, 1286 (10th Cir. 1999).
A.
As a threshold matter, we must first consider
whether the activity in question constitutes protected
speech under the First Amendment. See Cornelius v.
NAACP Legal Def. & Educ. Fund., Inc., 473 U.S. 788,
797 (1985) (“[I]f [the speech] is not [protected], we
need go no further.”). Here, Evans contends the
Ordinance restricts his ability to panhandle and
solicit financial support. According to the Supreme
Court, “the solicitation of charitable contributions is
protected speech.” Riley v. Nat’l Fed’n of the Blind of
N.C., Inc., 487 U.S. 781, 789 (1988). Neither the
Supreme Court nor this Circuit has directly addressed
whether panhandling is protected speech under the
First Amendment but several of our sister circuits
who reached the question determined panhandling is
protected. See Reynolds v. Middleton, 779 F.3d 222,
225 (4th Cir. 2015); Speet v. Schuette, 726 F.3d 867,
870 (6th Cir. 2013); Smith v. City of Fort Lauderdale,
177 F.3d 954, 956 (11th Cir. 1999); Loper v. N.Y.C.

9a
Police Dep’t, 999 F.2d 699, 704 (2d Cir. 1993).
Assuming without deciding panhandling is protected
under the First Amendment, as we will explain later,
the Ordinance is a valid time, place, or manner
restriction. See Gresham v. Peterson, 225 F.3d 899,
904-05 (7th Cir. 2000) (after “assuming . . . some
panhandler speech would be protected by the First
Amendment,” the Seventh Circuit applied the First
Amendment “time, place, and manner” framework.).
We note that while solicitation and panhandling
laws are on the books in cities across the United
States and challenges to such laws have been
similarly widespread, an astute reader will recognize
the Ordinance challenged here is not a ban on
panhandling or solicitation like many other
ordinances. Instead, the Ordinance is a restriction on
sitting or standing on narrow and unpaved medians.
This distinction will become important later, but for
now we assume Evans’ form of speech, panhandling,
is protected speech.
B.
We turn next to the nature of the forum affected by
the Ordinance.
Under First Amendment
jurisprudence, “the extent to which the Government
can control access [to Government property] depends
on the nature of the relevant forum.” Cornelius, 473
U.S. at 800. The Supreme Court has identified three
categories of Government property subject to First
Amendment analysis: (1) traditional public fora; (2)
designated public fora; and (3) nonpublic fora. See
Perry Educ. Ass’n v. Perry Local Educators’ Ass’n, 460
U.S. 37, 45-46 (1983). A traditional public forum is a
place that “by long tradition or by government fiat

10a
ha[s] been devoted to assembly and debate.” Id. at 45.
“Because a principal purpose of traditional public fora
is the free exchange of ideas, speakers can be excluded
from a public forum only when the exclusion is
necessary to serve a compelling state interest and the
exclusion is narrowly drawn to achieve that interest.”
Cornelius, 473 U.S. at 800 (citing Perry, 460 U.S. at
45). In contrast, designated public fora are places that
are not generally open to the public for First
Amendment activity and “are created by purposeful
governmental action” to allow speech activity.
Arkansas Educ. Television Com’n v. Forbes, 523 U.S.
666, 677 (1998). A nonpublic forum is anything that
does not qualify as a traditional or designated public
forum. Access to a nonpublic forum “can be restricted
as long as the restrictions are ‘reasonable and [are]
not an effort to suppress expression merely because
public officials oppose the speaker’s view.’” Cornelius,
473 U.S. at 800 (quoting Perry, 460 U.S. at 46)
(alteration in original).
Evans contends “[m]edians are widely considered
[traditional] public fora” whereas the City contends
the affected medians are nonpublic fora. The district
court did not decide the issue, concluding the forum
designation was not dispositive since the Ordinance
was valid even under the stricter standard for
traditional public fora. We agree with the district
court. As we will explain, the Ordinance is a valid
time, place, or manner regulation; thus, we need not
decide if the affected medians are more appropriately
classified as nonpublic fora. 2
Although courts have concluded medians that resemble
parks are traditional public fora, we have serious reservations
2

11a
C.
Assuming without deciding the affected medians
are traditional public fora, we turn to whether the
Ordinance is a valid restriction of protected speech. It
is well-settled “that even in a public forum the
government may impose reasonable restrictions on
the time, place, and manner of protected speech,
provided the restrictions ‘are justified without
reference to the content of the regulated speech, that
they are narrowly tailored to serve a significant
governmental interest, and that they leave open
ample alternative channels for communication of
information.’” Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989) (quoting Clark v. Cmty. for Creative
Non-Violence, 468 U.S. 288, 293 (1984)). We address
each of the three requirements in turn.
1.

Content Neutrality

Recall, the Ordinance proscribes any person “to sit
or stand, in or on any unpaved median, or any median
of less than 36 inches for any period of time.” Sandy
City Traffic Code, Article 16, Section 299.1. No one
disputes the Ordinance is facially content neutral
because it “does not draw content-based distinctions
on its face.” McCullen v. Coakley, 573 U.S. 464, 479
(2014). The law applies evenhandedly to all who sit
extending such conclusions to the affected medians in this case,
some of which are 17-inch traffic dividers that have hardly been
“by long tradition . . . devoted to assembly and debate.” Perry,
460 U.S. at 45; see, e.g., Warren v. Fairfax Cty., 196 F.3d 186, 189
(4th Cir. 1999) (“We hold that the Center Island mall is a
traditional public forum” because it is “best characterized as a
park or mall.”). Nevertheless, we assume without deciding the
affected medians are traditional public fora.

12a
or stand on narrow or unpaved medians irrespective
of the content of their message.
Even though the Ordinance is content-neutral on its
face, the Ordinance may nevertheless be contentbased if the government adopted the Ordinance
“because of disagreement with the message it
conveys.” Ward, 491 U.S. at 791. “The government’s
purpose is the controlling consideration. A regulation
that serves purposes unrelated to the content of
expression is deemed neutral, even if it has an
incidental effect on some speakers or messages but
not others.” Id. (emphasis added). “Government
regulation of expressive activity is content neutral so
long as it is ‘justified without reference to the content
of the regulated speech.’” Id. (quoting Cmty. for
Creative Non-Violence, 468 U.S. at 293).
The record indicates the City justified the
Ordinance without reference to the content of the
regulated speech. Specifically, the City police captain
explained during a City council meeting that people
sitting or standing on narrow or unpaved medians are
a public safety hazard. The police captain explained
the Ordinance sought to limit that danger because
there had been “several close calls” where accidents
involving pedestrians and vehicles “could [have]
be[en] devastating.”
The City’s public safety
justification is further confirmed by the process the
City prosecutor used to draft the Ordinance. First, the
City prosecutor received notice the police “were
having some problems with safety issues” with people
falling into traffic. To deal with this problem, the City
prosecutor set out to draft the Ordinance. He
gathered information by surveying the City’s

13a
medians.
Then, he drafted the Ordinance to
exclusively target medians where it was dangerous to
sit or stand for any length of time, regardless of the
speech that might occur. In his judgment, paved
medians less than 36-inches wide were dangerous to
sit or stand on because they were too narrow to
provide refuge from passing cars. He also concluded
unpaved medians, which were typically covered in
rocks, boulders, and in some cases shrubs, were
dangerous because pedestrians could easily lose their
footing or trip on uneven surfaces. At all times, the
City has maintained its sole justification for the
Ordinance is to promote public safety.
In spite of this clear public safety purpose, Evans
contends the Ordinance is not content neutral because
the City acted, in part, because it disagreed with
panhandling. Evans suggests the City’s public safety
justification is a façade for its improper motive to
suppress panhandlers’ speech. In support, Evans
points to one question and one statement made by two
councilmembers at the City council meeting where the
police captain presented the proposed Ordinance.
One councilmember asked, “we’re going to give
homeless people citations?” No reasonable factfinder
could conclude this question provides evidence the
City adopted the Ordinance “because of a
disagreement with the content” of panhandlers’
speech.
At most, the question reveals one
councilmember acknowledged the Ordinance would
have an incidental effect on panhandling. But it is
well-settled such an incidental effect on some
speakers or messages does not make a regulation
content-based. See Ward, 491 U.S. at 791 (“A
regulation that serves purposes unrelated to the

14a
content of expression is deemed neutral, even if it has
an incidental effect on some speakers or messages but
not others.”); see also City of Renton v. Playtime
Theaters, Inc., 475 U.S. 41, 49 (1986) (classifying a
restriction on the location of adult movie theaters as
content neutral because the ordinance was aimed not
at the content of the films shown, but rather at the
secondary effects of such theaters on the surrounding
community); McCullen, 573 U.S. at 480 (classifying an
ordinance that exclusively restricted speech at
abortion clinics as content neutral because the
ordinance was aimed at public safety, even though it
had an incidental effect on abortion-related speech).
Therefore, this question most certainly does not turn
the Ordinance into a content-based restriction.
Additionally, Evans contends a councilmember’s
statement, “And I don’t even know who stops there to
give them anything in the middle of traffic as it’s
going,” shows the City adopted the Ordinance because
it disagreed with panhandling.
Like the
councilmember’s question, no reasonable factfinder
could conclude the statement provides evidence the
City adopted the Ordinance because of a
disagreement with the content of panhandler’s
speech. This is especially true when the statement is
read in context.
The councilmember’s entire
statement and the City police captain’s response
indicates the councilmember endorsed the Ordinance
to promote public safety:
I drove 106th the other day at about noon and
there were four people standing on [a] median
and they were talking, you know, this group of
guys were just talking there and, boy, if one of

15a
them would have stepped backwards a foot—
’cause they were on [a median] narrower than
three feet—[Police Captain: “Correct”]—they
would’ve been just wiped out—[Police
Captain: “I believe it is approximately 16
inches”]—Really it was scarey [sic] for me and
it’s for their own safety, you know. And I don’t
even know who stops there to give them
anything in the middle of traffic as it’s going.
This statement supports the City’s public safety
justification
for
passing
the
Ordinance.
Conspicuously, the statement says nothing about the
content of panhandlers’ speech, let alone provides
evidence the City passed the Ordinance because it
disagreed with their message.
Accordingly, the
3
Ordinance is content neutral.
2.

Narrowly Tailored to Serve a Significant
Government Interest

“Even though the [Ordinance] is content neutral, it
still must be ‘narrowly tailored to serve a significant
governmental interest.’” McCullen, 573 U.S. at 486
(quoting Ward, 491 U.S. at 796). No one disputes the
Ordinance serves a significant governmental interest
in promoting public safety. In fact, even Evans
acknowledges “[t]here’s no real dispute about whether
keeping cars and pedestrians away from each other
would, at least in some way, make Sandy City a safer
place.” Op. Br. at 25 (citing Int’l Soc’y for Krishna
Evans also argues we should consider City councilmembers’
post-enactment comments as evidence relevant to their
motivations for passing the Ordinance. Evans cites no authority
to support the use of such comments as bearing on legislative
purpose.
3

16a
Consciousness v. City of Baton Rouge, 668 F. Supp.
527, 530 (M.D. La. 1987) (“It requires neither
towering intellect nor an expensive ‘expert’ study to
conclude that mixing pedestrians and temporarily
stopped motor vehicles in the same space at the same
time is dangerous.”)). With both parties in agreement,
we need not belabor the point: the Ordinance
promotes public safety in a direct and effective way by
keeping pedestrians off thin slices of pavement and
unpaved traffic dividers where pedestrians could be
injured by passing traffic.
We turn, instead, to the hotly contested question:
whether the Ordinance is narrowly tailored to serve
that interest. To be narrowly tailored, the Ordinance
must not “burden substantially more speech than is
necessary to further the government’s legitimate
interests.” Ward, 491 U.S. at 799. In other words, the
government “may not regulate expression in such a
manner that a substantial portion of the burden on
speech does not serve to advance its goals.” McCullen,
573 U.S. at 486 (quoting Ward, 491 U.S. at 799). This
requirement demands a “close fit between ends and
means” to ensure speech is not sacrificed for
efficiency. Id. We look “to the amount of speech
covered by the ordinance and whether there is an
appropriate balance between the affected speech and
the governmental interests that the ordinance
purports to serve.” Watchtower Bible & Tract Soc’y of
N.Y., Inc. v. Village of Stratton, 536 U.S. 150, 165
(2002).
At the same time, such regulation “need not be the
least restrictive or least intrusive means of doing so.
Rather, the requirement of narrow tailoring is

17a
satisfied ‘so long as the . . . regulation promotes a
substantial government interest that would be
achieved less effectively absent the regulation.’”
Ward, 491 U.S. at 798-99 (quoting United States v.
Albertini, 472 U.S. 675, 689 (1985)). “So long as the
means chosen are not substantially broader than
necessary to achieve the government’s interest, . . . the
regulation will not be invalid simply because a court
concludes that the government’s interest could be
adequately served by some less-speech-restrictive
alternative.” Id. at 800. “‘The validity of [time, place,
or manner] regulations does not turn on a judge’s
agreement with the responsible decisionmaker
concerning the most appropriate method for
promoting significant government interests’ or the
degree to which those interest should be promoted.”
Id. at 800 (quoting Albertini, 472 U.S. at 689).
Here, the City adopted the Ordinance to promote
“public health, safety and [the] welfare of the City”
after there had been several “close calls” where
individuals reported pedestrians on medians in
dangerous situations. Evans nevertheless contends
the Ordinance is not narrowly tailored. To this end,
Evans makes three main arguments. We address
each in turn.
a.
First, relying on McCullen, Evans claims the
Ordinance places a substantial burden on speech
because it requires him to sit or stand a substantial
distance away from the most effective places to
communicate with his target audience. In McCullen,
the Supreme Court determined an ordinance
requiring a buffer zone around abortion clinics

18a
imposed a substantial burden on speech and
“effectively stifled petitioners’ message” because the
ordinance prevented petitioners from engaging in
close, personal conversations with their target
audience of women entering the clinics. McCullen,
573 U.S. at 489-90. Similarly, Evans claims standing
on medians where he can talk to drivers in vehicles is
the most effective way to communicate with his target
audience and the Ordinance prevents him from doing
so.
We are not persuaded. Evans received two citations
for standing on a paved 17-inch median. A mere ten
feet away from where he was cited, the median is
wider than 36 inches and is therefore unaffected by
the Ordinance. We simply cannot accept this tenfoot difference on the same median as a substantial
burden on speech. In compliance with the Ordinance,
Evans can stand on wide, paved medians to
communicate effectively with his target audience.
Unlike McCullen, the Ordinance does not effectively
stifle Evans’ ability to communicate his message to his
target audience.
b.
Second, Evans contends the City failed to show it
properly balanced speech against safety. To ensure a
regulation does not burden substantially more speech
than necessary to further the government’s interests,
narrow tailoring requires “a close fit between ends
and means” to ensure speech is not sacrificed for
efficiency. McCullen, 573 U.S. at 486 (citing Nat’l
Fed’n of the Blind, 487 U.S. at 795). Fit matters, but
narrow tailoring “does not require perfect tailoring.
The doctrine requires only that a challenged speech

19a
restriction not burden ‘substantially’ more speech
than is necessary to further the government’s
interest.” Cutting v. City of Portland, 802 F.3d 79, 86
(1st Cir. 2015).
Evans contends the City did not meet its burden to
justify the fit between the ends and the means when
it failed to “compile any data, statistics, or accident
reports.” According to Evans, “[u]nder McCullen,
Sandy City’s failure to conduct research and analysis
is dispositive. . . . Indeed, that’s the grit of McCullen:
governments must provide real evidence to justify
their public safety concerns.” In McCullen, the
Supreme Court explained evidence of a problem at one
abortion clinic at one time did not justify the burden
on other clinics at other times. Specifically, the
Supreme Court stated, “Respondents point us to no
evidence that individuals regularly gather at other
clinics, or at other times in Boston, in sufficiently
large groups to obstruct access. For a problem shown
to arise only once a week in one city at one clinic,
creating 35-foot buffer zones at every clinic across the
Commonwealth [of Massachusetts] is hardly a
narrowly tailored solution.” McCullen, 573 U.S. at
493. The Supreme Court’s language does not create a
new evidentiary requirement for governments to
compile data or statistics. Instead, governments bear
the same burden to show a regulation does not
“burden substantially more speech than is necessary
to further the government’s legitimate interests.” Id.
at 486 (quoting Ward, 491 U.S. at 799).
Here, a direct relationship exists between the City’s
goal of promoting public safety and the restriction on
speech it selected. The Ordinance is limited only to

20a
those medians where it is unsafe to sit or stand. The
City police captain—a City official who had years of
experience dealing with unsafe situations involving
pedestrians on medians in Sandy City—conducted a
survey of the medians in Sandy City. The City
prosecutor also surveyed the medians within the City.
Based on what they observed, the City drafted the
Ordinance limiting it only to those medians where it
would be dangerous to sit or stand at any time of day,
at any traffic speed or volume. The City prosecutor
explained he included unpaved medians where the
“footing isn’t uniform,” which posed a tripping hazard.
He included narrow medians after walking on them
and determining what width would provide sufficient
refuge from passing traffic.
Such evidence is
sufficient to satisfy the City’s burden to show the
Ordinance does not “burden substantially more
speech than is necessary to further the government’s
legitimate interests.” Id. (quoting Ward, 491 U.S. at
799). The Ordinance only prohibits sitting or standing
on narrow or unpaved medians where it would be
dangerous to do so. This is the sort of close fit the
narrow tailoring requires.
Evans also contends the City failed to satisfy its
evidentiary burden because it did not provide accident
reports or complaints regarding medians in all parts
of the City. Evans would have this Court require the
City to restrict speech in a piece-meal fashion, median
by median, only upholding an ordinance after there is
a report of a “close call” on a particular median, or
worse, someone gets injured. The First Amendment
“prevents the government from too readily
‘sacrificing] speech for efficiency.’” Id. at 486 (quoting
Nat’l Fed’n of the Blind, 487 U.S. at 795). It does not

21a
require the government to wait for accidents to justify
safety regulations.
See Traditionalist American
Knights of the Ku Klux Klan v. City of Desloge, 775
F.3d 969, 975 (8th Cir. 2014) (“The fact that a
pedestrian had not yet been hit while distributing
materials in the city did not mean that it was not
dangerous, for a government need not wait for
accidents to justify safety regulations.”) (quotations
omitted).
c.
Third, Evans argues the Ordinance is not narrowly
tailored because the City did not demonstrate
alternative measures that burden substantially less
speech would fail to promote public safety. According
to Evans, since the City did not “prove that it actually
tried other methods to address the problem,” such as
alternatives that distinguish between high and low
traffic areas, traffic volume, or time of day, we should
strike down the Ordinance as not narrowly tailored.
Op. Br. at 31. (quoting Reynolds, 779 F.3d at 231
(emphasis in original)).
“[A] regulation of the time, place, or manner of
protected speech must be narrowly tailored to serve
the
government’s
legitimate,
content-neutral
interests but . . . it need not be the least restrictive or
least intrusive means of doing so.” Ward, 491 U.S. at
798.
“So long as the means chosen are not
substantially broader than necessary to achieve the
government’s interest, . . . the regulation will not be
invalid simply because a court concludes that the
government’s interest could be adequately served by
some less-speech-restrictive alternative.” Id. at 800
(emphasis added). McCullen does not change that. In

22a
McCullen, the Court determined the means chosen
were substantially broader than necessary to achieve
the government’s interest.
As part of its
“substantially broader than necessary” analysis, the
Court identified several less restrictive alternatives
that would have plausibly achieved the government’s
stated interest. McCullen, 573 U.S. at 491-93. Thus,
McCullen taught us a less restrictive means analysis
might be helpful in the narrow tailoring inquiry, but
it did not modify Ward’s clear rule. See McCullen, 573
U.S. at 486 (citing Ward, 491 U.S. at 798) (holding a
content neutral restriction on speech “need not be the
least restrictive or least intrusive means of serving
the government’s interests”).
In this case, the less restrictive means identified by
Evans and the dissent are clearly inadequate. For
example, the dissent suggests Sandy City might have
considered limiting activity on the medians at night,
when the dark makes it more difficult for drivers to
see. In the very next sentence, the dissent suggests
the City could have limited the Ordinance to times of
day when traffic is busiest. But, to do both of these
things—limiting median activity at night and during
heavy traffic times—would essentially constitute a
twenty-four-hour ban. Even if the Ordinance left open
a window from 10 a.m. to 3 p.m., it is not at all
implausible that a driver could strike someone
standing on the median during those hours. The
danger stems from cars—whether it be one or one
hundred—traversing a roadway in which pedestrians
are standing precariously within striking distance.
The dissent also suggests the Ordinance could apply
to medians where traffic speed is greatest. But again,

23a
whether a pedestrian is struck at 15 MPH or 50 MPH,
injury is sure to result.
In addition to narrowing the Ordinance by time of
day or vehicle traffic, the dissent suggests the City
could have tailored the Ordinance to apply only to
those medians which were the focus of the complaints
the City received. However, while the complaints
identified a danger to people standing on medians—
and contributed to the development of the Ordinance
in this case—the complaints are not what created the
danger. Just because Sandy City has not received a
complaint about every 36-inch median in the city does
not make it any less dangerous for pedestrians to
stand on them. Finally, the dissent suggests the City
could enforce its existing laws on public intoxication
and impeding traffic to reach the same result. To
make this approach effective, however, a police officer
would have to sit and watch a person on the median
until they fell into traffic—again defeating the City’s
goal of promoting public safety.
Ultimately, the Ordinance is not substantially
broader than necessary to promote public safety. On
both narrow and unpaved medians, the restriction on
speech is directly tailored to the danger. We will not
invalidate the Ordinance “simply because there is
some imaginable alternative that might be less
burdensome on speech.” Ward, 491 U.S. at 797
(quoting Albertini, 472 U.S. at 689). The City is not
required to ignore the danger posed by standing on a
17-inch sliver of concrete just because lighter traffic
may make it less likely one will be hit by a car. While
we could posit an infinite number of potentially less
restrictive alternatives, the Supreme Court instructs

24a
us that the validity of a content neutral regulation
“does not turn on a judge’s agreement with the
responsible decisionmaker concerning the most
appropriate method for promoting significant
government interests.” Ward, 491 U.S. at 800 (citing
Albertini, 472 U.S. at 689).
The Ordinance is
narrowly tailored to the public safety problem the City
sought to address. Because the means fit closely with
the ends, First Amendment jurisprudence does not
require the City to prove that some imaginable
alternative would fail to achieve the government’s
interest in public safety.
3.

Ample Alternative Channels of
Communication

Finally, a reasonable time, place, or manner
restriction of protected speech must “leave open ample
alternative
channels
for
communication
of
information.” Ward, 491 U.S. at 791. “While the First
Amendment does not guarantee the right to employ
every conceivable method of communication at all
times and in all places, a restriction on expressive
activity may be invalid if the remaining modes of
communication are inadequate.” City Council of L.A.
v. Taxpayers for Vincent, 466 U.S. 789, 812 (1984)
(citations omitted). To determine whether alternative
channels are adequate, courts assess in part the
speaker’s ability to reach his or her target audience.
Ward, 491 U.S. at 802.
No one disputes the Ordinance leaves open many
alternative channels for Evans to communicate,
including paved medians wider than 36 inches, every
city sidewalk, and every city park. Despite the
available alternatives, Evans contends sidewalks and

25a
parks are not adequate because he cannot reach his
target audience—drivers in vehicles—as effectively
compared to medians.
Setting aside whether Evans can “effectively”
communicate with his target audience on sidewalks
and in parks, the City argues roughly 7,000 linear feet
of wide, paved medians in the City remain unaffected
by the Ordinance. Evans does not dispute that. And
critically, at no point does Evans distinguish his
ability to communicate with his target audience on
affected or unaffected medians.
Evans’ target
audience is indistinguishable on affected and
unaffected medians. Recall, the City cited Evans
twice for standing on a narrow median. Only ten feet
away from where the City cited Evans, the paved
median is wider than 36 inches and therefore
unaffected by the Ordinance. Given Evans “prefers to
stand on medians” and he never argued wide, paved
medians were inadequate to effectively communicate
with drivers in vehicle, the 7,000 linear feet of
unaffected medians in the City provide Evans ample
alternative channels for communication with his
target audience.
III.
The Ordinance—narrow in its purpose, design, and
effect—does not discriminate based on content, is
narrowly drawn to serve an important governmental
interest, and permits Evans to express his views,
including the solicitation of financial support, on
literally thousands of linear feet within Sandy City.
The judgment of the district court is AFFIRMED.

26a
No. 17-4179, Evans v. Sandy City
BRISCOE, Circuit Judge, dissenting.
I respectfully dissent. In my view, Sandy City has
not carried its burden to establish that the Ordinance
is narrowly tailored to serve a significant
governmental interest. 1
Nor has Sandy City
established that the affected medians are nonpublic
fora. I would reverse the district court’s grant of
summary judgment to the City and remand for
further proceedings.
I
As the majority acknowledges, when a regulation is
content neutral, 2 “the requirement of narrow tailoring
The majority assumes that panhandling is protected speech,
and I would affirmatively conclude that it is. As the majority
notes, the Supreme Court has stated that “the solicitation of
charitable contributions is protected speech.” Maj. Op. at 4
(quoting Riley v. Nat’l Fed’n of the Blind, 487 U.S. 781, 789
(1988)); see also Village of Schaumburg v. Citizens for a Better
Env’t, 444 U.S. 620, 632 (1980) (“[C]haritable appeals for funds,
on the street or door to door, involve a variety of speech
interests—communication of information, the dissemination and
propagation of views and ideas, and the advocacy of causes—that
are within the protection of the First Amendment.”). And every
one of our sister circuits to reach the question has concluded that
panhandling is protected speech. See Reynolds v. Middleton, 779
F.3d 222, 225 (4th Cir. 2015); Speet v. Schuette, 726 F.3d 867,
870 (6th Cir. 2013); Smith v. City of Fort Lauderdale, 177 F.3d
954, 956 (11th Cir. 1999); Loper v. N.Y.C. Police Dep’t, 999 F.2d
699, 704 (2d Cir. 1993); accord Comite de Jornaleros v. City of
Redondo Beach, 657 F.3d 936, 945 (9th Cir. 2014) (en banc)
(holding that solicitation is protected speech).
1

I agree with the majority that the Ordinance is content
neutral.
2

27a
is satisfied so long as the regulation promotes a
substantial government interest that would be
achieved less effectively absent the regulation, and
does not burden substantially more speech than is
necessary to further the government’s legitimate
interests.” Wells v. City & Cty. of Denver, 257 F.3d
1132, 1148 (10th Cir. 2001) (quotations and ellipsis
omitted). Here, the City has failed to show that the
Ordinance does not burden substantially more speech
than is necessary to further the City’s legitimate
interest in public safety. 3
A
To determine whether the Ordinance is narrowly
tailored, we first look, as the majority did, to the
amount of speech it burdens. See Watchtower Bible
& Tract Soc’y of N.Y., Inc. v. Village of Stratton, 536
U.S. 150, 165 (2002) (“We must . . . look . . . to the
amount of speech covered by the ordinance and
whether there is an appropriate balance between the
affected speech and the [state] interests that the
ordinance purports to serve.”). Contrary to the
majority’s view, Maj. Op. at 12-13, I would conclude
that the Ordinance places a substantial burden on
speech.
The Ordinance bans all speech on affected medians
at all times. See Sandy City Traffic Code, Article 16,
Section 299.1. The Ordinance also applies to a
substantial number of Sandy City’s medians.
Although the record does not include the exact
number of affected medians, the record indicates that
I also agree with the majority that the City’s interest in
public safety is legitimate and substantial.
3

28a
this number is significant, as it contains “over 100
pages of photographs depicting nearly every different
type” of affected median. Aplt. Reply at 4; accord
Aplee. App., Vol. II at 109-276.
Because the
Ordinance prohibits all expressive activity at all times
on many medians throughout Sandy City, it
“serious[ly] burdens . . . speech.” McCullen v. Coakley,
573 U.S. 464, 487 (2014). 4
B
In conducting the narrowly tailored analysis, we
must look to “the specific . . . interest articulated by
the City.” Citizens for Peace in Space v. City of Colo.
Springs, 477 F.3d 1212, 1223 (10th Cir. 2007).
“Indeed, to assess whether a restriction is an
appropriate ‘fit’ to some important government
interest, it is necessary that the government interest
be specifically defined.” Id. Here, the City enacted
the Ordinance because it was “worried about people
falling into traffic.” Aplt. App., Vol. II at 291. When
addressing the City Council in support of the
Ordinance, Sandy City Police Chief O’Neal described
the safety danger as follows: “If someone trips and
The majority evaluates the Ordinance’s burden on speech
only with reference to whether the Ordinance renders Evans’s
panhandling less effective. To be sure, much of Evans’s
argument regarding the Ordinance’s burden on speech focuses
on the decreased efficacy of his speech because he is prohibited
from using many medians to panhandle. But Evans’s narrowtailoring argument also argues that the Ordinance applies to
numerous medians throughout the City. See Aplt. Br. at 32
(“Given that the City’s evidence supported a conclusion that
there were, at most, a few problem areas in Sandy, the City
needed to try using less restrictive tools before it implemented a
city-wide ban.”).
4

29a
steps out into traffic, especially with the speed that
traffic goes through [one specific] area, it could be
devastating.” Aplt. App., Vol. I at 177. The First
Amendment analysis must therefore examine the fit
between the City’s stated interest, preventing people
from falling off medians into traffic, and the City’s
chosen means, banning all sitting or standing on all
unpaved medians and all paved medians narrower
than 36 inches.
C
After identifying the specific interest the City
articulates, we must determine on this summary
judgment record if the Ordinance is narrowly tailored
to serve that interest; that is, if the Ordinance
“burden[s] substantially more speech than is
necessary to further the [City’s] legitimate interests.”
Ward v. Rock Against Racism, 491 U.S. 781, 799
(1989). “[R]estrictions on the time, place, or manner
of protected speech are not invalid simply because
there is some imaginable alternative that might be
less burdensome on speech.” Id. at 797. Rather, “[t]he
scope of the restriction on speech must be reasonably,
though it need not be perfectly, targeted to address
the harm intended to be regulated.” 44 Liquormart,
Inc. v. Rhode Island, 517 U.S. 484, 529 (1996)
(O’Connor, J., concurring).
When deciding on the scope of the Ordinance, Sandy
City Police Captain Justin Chapman and Sandy City
Prosecutor Doug Johnson visited medians in Sandy
City to determine which were “safe” and which were
“unsafe.” See Aplt. App., Vol. II at 292-93. The
majority characterizes Chapman’s and Johnson’s
process as a “survey of the medians in Sandy City.”

30a
Maj. Op. at 15; accord id. at 8. I find that description
generous, to say the least.
Johnson concluded which medians were “safe”
based on whether, while standing on a median, he felt
he was likely to be hit by a moving vehicle. Johnson
made this determination “anecdotally,” Aplt. App.,
Vol. II at 293, employing the following methodology:
I would just stand on a median and go, “This
is scary. I just almost got hit.” And then I
would walk somewhere where it was just a
little bit wider and go, “This is scary. I almost
got hit.” And then I would walk somewhere
that was just a little bit wider, until finally I
found a place where I said, “I don’t think I
could get hit there.” And . . . then I noted that
place, went back to the police department,
asked them to go get measurements for where
I was standing, and went from there.
Id. Johnson conducted this experiment on one median
in Sandy City.
Chapman visited “[a] lot” of medians throughout
Sandy City and measured the width of medians
throughout “the main arteries [of Sandy City] that . .
. had obvious islands.” Id. at 357-58. Chapman
“didn’t feel any of the islands regardless [of width]
were safe to be on.” Id. at 359. After visiting the
medians, Chapman concluded that the “not smooth,”
“unpaved medians” had “landscaping that would
cause a tripping hazard.” Id. This conclusion was
based on his

31a
feeling, if you had a person that was walking,
standing, whatever they’re doing in the area
where cars are whizzing by, if it’s unpaved, or
uneven . . . , you have the potential to trip on
something like that . . . . That seemed it could
be a little bit more unsafe because whether or
not you’re specifically choosing a path one way
or another, you simply catch your toe on a rock
and boom, you’re in the traffic.
Id. at 359-60.
In addition to relying on Johnson’s and Chapman’s
opinions, the City justifies the Ordinance by pointing
to complaints that the Sandy City police received
about people on medians. 5 The record contains
twenty-nine documented complaints between October
7, 2014, and April 29, 2017, twenty-eight of which
relate to people standing on Sandy City medians. 6
See Aplee. App., Vol. II at 277-341. Most of the
complaints arise from one small area of the city.
Indeed, at least twenty-two of the twenty-nine
Although the City cites complaints as evidence that the
Ordinance was necessary, the majority does not rely on the
complaints at all, stating only that the First Amendment “does
not require the government to wait for accidents to justify safety
regulations.” Maj. Op. at 15. Be that as it may, the First
Amendment does require the government to “demonstrate that
the recited harms,” here, the danger of people falling off medians
into traffic, “are real, not merely conjectural, and that the
regulation will in fact alleviate those harms in a direct and
material way.” Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622,
664 (1994) (plurality opinion).
5

One complaint does not seem related to an individual
standing on a median at all. See Aplee. App., Vol. II at 303
(“[M]ale in traffic . . . on foot . . . in and out of traffic.”).
6

32a
complaints relate to locations within half a mile of
each other, all of which are near on- and off-ramps for
Interstate Highway 15. Based on Johnson’s and
Chapman’s surveys and the complaints regarding
people in the median, Sandy City enacted the
Ordinance, which states in full:
It shall be illegal for any individual to sit or
stand, in or on any unpaved median, or any
median of less than 36 inches for any period of
time.
Sandy City Traffic Code, Article 16, Section 299.1.
I view this record as inadequate to support the
City’s ban of all expressive activities in numerous
medians throughout the city. First, Johnson and
Chapman articulate no objective basis for their
opinions.
Rather, Johnson characterized his
determination of which medians were safe as being
made “anecdotally,” Aplt. App., Vol. II at 293, and
Chapman relied on his “feeling” to determine which
medians “seemed [they] could be a little bit more
unsafe,” id. at 359-60. 7 In the First Amendment
context, this is not enough. See Turner Broad. Sys.,
Inc. v. FCC, 520 U.S. 180, 196 (1997) (“[I]n the realm
of First Amendment questions,” the legislature “must
base its conclusions upon substantial evidence.”); see
also McCullen, 573 U.S. at 496 (“Given the vital First
The 36-inch width limitation did not stem from Chapman’s
opinions regarding safety. Rather, Chapman “didn’t feel any of
the islands regardless [of width] were safe to be on.” Aplt. App.,
Vol. II at 359. Chapman’s “years of experience dealing with
unsafe situations involving pedestrians on medians in Sandy
City,” Maj. Op. at 15, therefore did not inform the Ordinance’s
width limitation.
7

33a
Amendment interests at stake, it is not enough for
[the City] simply to say” that the Ordinance is
necessary.).
Second, the complaints the City submitted do not
indicate that the Ordinance is tailored to address the
City’s articulated interest in preventing people from
falling off medians into traffic. Even to the extent the
complaints support a conclusion that sitting or
standing on medians is in fact dangerous, 8 most of the
complaints pertain to one small part of the city. As
the Supreme Court noted in McCullen, “[f]or a
problem shown to arise only once a week in one city at
one clinic, creating 35-foot buffer zones at every clinic
across the Commonwealth is hardly a narrowly
tailored solution.” 573 U.S. at 493. Here, the
complaints indicate a problem that arises
infrequently and in a single area of Sandy City. 9 The
City’s decision in this case to ban all sitting or
standing on many medians throughout the city is, as

Several of the complaints were regarding the mere presence
of individuals on medians and expressed no traffic-safety
concerns. See, e.g., Aplee. App., Vol. II at 287 (“[T]ransient
standing on the median asking for money for his infection.”); id.
at 312 (“Panhandler on the island stopping traffic and asking for
money.”); id. at 324 (indicating that a “panhandler” is in the
“middle of [the] road”); id. at 333 (“Panhandler on the median . .
. getting mad when being refused” and “spit on [the]
comp[lainant’s] truck.”).
9 The record indicates that the twenty-nine complaints in the
record could be underinclusive. Regardless, Chapman—who
testified that he personally fielded complaints that may not have
been documented—stated that “[m]ost of” the complaints related
to medians “at intersections” and involved the main roads and
places with freeway access. Aplt. App., Vol. II at 353.
8

34a
in McCullen, “hardly a narrowly tailored solution.”
Id.
Further, the record does not reveal the
characteristics of the medians involved in the
complaints—whether the medians are narrower than
36 inches, wider than 36 inches, paved, or unpaved.
In other words, the record does not show whether the
Ordinance in fact addresses any problem the
complaints identified. As a result, we are unable to
determine whether the problem the City identified
from the complaints—the potential for people to fall
off medians into traffic—would actually be addressed
by the Ordinance’s prohibitions.
Absent such
evidence of tailoring—of a relationship between the
end and the means—the Ordinance fails. See, e.g.,
McCutcheon v. Fed. Election Comm’n, 572 U.S. 185,
218 (2014) (“In the First Amendment context, fit
matters.”).
As drafted, the Ordinance burdens a substantial
amount of speech. And Sandy City has failed to show
that the Ordinance does not “burden substantially
more speech than is necessary to further” its interest
in preventing people from falling off medians into
traffic. Ward, 491 U.S. at 799. Given the amount of
speech it burdens, the interest the City identified to
justify that burden, and the lack of fit between the
two, the Ordinance is not narrowly tailored and does
not survive intermediate scrutiny.
D
The Ordinance also fails intermediate scrutiny
because “[the City] must demonstrate that alternative
measures that burden substantially less speech would

35a
fail to achieve [its] interests.” McCullen, 573 U.S. at
495.
In McCullen, the Supreme Court’s entire narrowtailoring analysis consisted of discussing alternative
measures the government could have utilized to
further its substantial interests. See id. at 490-96.
The Supreme Court first articulated the government’s
stated interest, then identified other regulations
already in existence “that prohibit[] much of [the
targeted] conduct,” id. at 491, and alternative
regulations the government could enact that would
prohibit the targeted conduct, id. at 491-93. The
Court concluded that the challenged regulation was
substantially more broad than necessary because of
the availability of less speech-restrictive alternatives.
Id. at 490-94; accord Verlo I, 820 F.3d at 1135
(“[W]hen considering content-neutral regulations, the
[Supreme] Court itself has examined possible
alternative approaches to achieving the [state’s]
objective to determine whether the [state’s] chosen
approach burdens substantially more speech than
necessary.”).
Just as in McCullen, there are numerous
alternative measures Sandy City could have employed
to address the risks associated with people falling off
medians into traffic. For example, Sandy City “might
have considered limiting activity on medians only at
night, when the dark makes it more difficult for
drivers to see.” Cutting v. City of Portland, 802 F.3d
79, 92 (1st Cir. 2015). Sandy City also could have
examined “pedestrian and vehicle traffic patterns”
and limited the Ordinance to certain times of day
when traffic is busiest or to certain areas where the

36a
speed limit is greatest. Id. at 88. Sandy City did not
consider such limitations.
In addition to narrowing the Ordinance by time of
day or pedestrian and vehicle traffic, Sandy City could
have applied the Ordinance only to those medians
which were the focus of the complaints the City
received. See Aplee. App., Vol. II at 277-341. As
discussed, most of the medians that were the subject
of citizen complaints were within half a mile of each
other and were near on- and off-ramps for Interstate
Highway 15. The City could have limited the
Ordinance to medians in areas that had the most
potential for safety problems.
Sandy City also could have used already-existing
laws to ensure public safety. As in Cutting, the Sandy
City citizen complaints showed that much of the
“danger to drivers and other users of the streets . . .
was tied to concerns about disruptive and inattentive
individuals on median strips.” 802 F.3d at 90.
Specifically, citizens complained that panhandlers
“appeared to be intoxicated or high” or “were having
trouble walking[ and] keeping their balance.” Aplt.
App., Vol. II at 357. This behavior could “be addressed
through existing local ordinances,” McCullen, 573
U.S. at 492, including Sandy City’s statutes against
public intoxication and impeding traffic. Additionally,
some medians can only be illegally accessed by
jaywalking.
By enforcing its laws prohibiting
jaywalking, the City could reduce access to medians
without burdening speech.
“The point is not that [Sandy City] must enact all or
even any of the proposed [alternative approaches].
The point is instead that [the City] has available to it

37a
a variety of approaches that appear capable of serving
its interests, without excluding individuals from areas
historically open for speech and debate.” McCullen,
573 U.S. at 493-94.
The Ordinance is not
unconstitutional merely “because there is some
imaginable alternative that might be less burdensome
on speech.” Ward, 491 U.S. at 797. But, “[g]iven the
vital First Amendment interests at stake, it is not
enough for” Sandy City “to simply say that other
approaches” would not work. McCullen, 573 U.S. at
496. Rather, the City must “show[] that it seriously
undertook to address the problem with less intrusive
tools readily available to it,” id. at 494, and that these
or other “alternative measures that burden
substantially less speech would fail to achieve” its
interests, id. at 495. Sandy City has done neither, and
that failure proves that the Ordinance is not narrowly
tailored to achieve the City’s interests.
The majority characterizes McCullen as “teaching”
that “less restrictive means analysis might be helpful
in the narrow tailoring inquiry.” Maj. Op. at 17.
McCullen’s lesson is more affirmative than that: “[the
City] must demonstrate that alternative measures
that burden substantially less speech would fail to
achieve [its] interests.” McCullen, 573 U.S. at 495.
Instead, the majority does the work the City should
have done, by concluding the “less restrictive means”
are “clearly inadequate.” Maj. Op. at 16-17 (quoting
Ward, 491 U.S. at 800). But neither the majority, nor
any court, is the proper body to perform this analysis
or to reach this conclusion. Rather, to satisfy the
requirement of McCullen, a governmental entity must
perform this evaluation in the first instance. Any

38a
subsequent rationale a court may conjure up after the
fact relieves the City of its burden and places it with
the court. The City needed to evaluate alternatives so
that it could demonstrate these alternatives failed to
achieve its interests; and the record shows no such
consideration. Under McCullen, dealing with a very
similar statute, the Supreme Court required the
government to show that alternatives like the ones
presented here “failed to achieve [its] interests.”
McCullen, 573 U.S. at 495. Neither the district court
nor the majority holds the City to that required
standard.
E
In sum, the evidence the City relies on to show the
requisite First Amendment means-end fit—the
testimony of Johnson and Chapman that they did not
feel safe on certain medians and the twenty-eight
complaints about individuals in medians—is
inadequate to support the City’s decision to ban
sitting or standing on all unpaved medians and all
paved medians narrower than 36 inches throughout
the entire city. And Sandy City has not shown that it
attempted to address its safety concerns through
other, less speech-restrictive alternatives. The City
has not demonstrated that the Ordinance does not
“burden substantially more speech than is necessary
to further the government’s legitimate interests,”
Ward, 491 U.S. at 799, nor has it shown that
“alternative measures that burden substantially less
speech would fail to achieve [its] interests,” McCullen,
573 U.S. at 495. The Ordinance fails intermediate
scrutiny.

39a
II
Because I do not think the Ordinance survives
intermediate scrutiny, I cannot merely assume, as the
majority does, that the affected medians are
traditional public fora. But I do not think that the
City has established as a matter of law that the
affected medians are nonpublic fora. 10 I would
therefore reverse the district court’s grant of summary
judgment to the City and remand.
We distinguish between traditional public,
designated public, and nonpublic fora by looking at:
(1) physical characteristics of the property, including
location, see Frisby v. Schultz, 487 U.S. 474, 480-81
(1988); (2) intended use of the property, see United
States v. Kokinda, 497 U.S. 720, 727 (1990); and (3)
actual use of the property, see Ark. Educ. Telev.
Comm’n v. Forbes, 523 U.S 666, 676 (1988). “[F]orum
status is a fact-intensive inquiry,” that “should be
focused on the physical characteristics and the
intended and actual use[s] of’ the property. Verlo I,
820 F.3d at 1132, 1139.

Sandy City argues that “Evans has not provided any
evidence that the unsafe medians at issue here are public
forums.” Aplee. Br. at 10. That argument misplaces the burden.
“[W]hen a law infringes on the exercise of First Amendment
rights,” as the Ordinance does, “its proponent,” here, Sandy City,
“bears the burden of establishing its constitutionality.” iMatter
Utah v. Njord, 774 F.3d 1258, 1263 (10th Cir. 2014) (quotation
omitted). Thus, the burden was not on Evans to show the
affected medians are public fora subject to intermediate scrutiny,
but on Sandy City to show either that the medians are nonpublic
fora and the Ordinance survives rational basis review, or the
Ordinance survives intermediate scrutiny.
10

40a
As to the physical characteristics of the medians,
the record has photos of “nearly every different type”
of affected median. Aplt. Reply at 4. The photos
reveal that, physically, the affected medians vary
widely. For example, some contain park benches,
memorial plaques, and signs readable only from close
proximity, while others consist only of a narrow strip
of concrete, likely only a few inches in length. Some
medians are landscaped and accessible from
crosswalks, while others are not.
As regards their intended uses, Sandy City claims
“the sole purpose of the unsafe medians is to regulate
automobile traffic, divide lanes, and prevent
automobiles from crossing the centerlane in ways that
would interrupt traffic flow.” Aplee. Br. at 11. This
may, in fact, be the City’s intended use of the affected
medians.
But we have acknowledged that the
government’s intended use does not control the forum
analysis. See First Unitarian Church of Salt Lake
City v. Salt Lake City Corp., 308 F.3d 1114, 1124-26
(10th Cir. 2002) (“We first reject the contention that
the City’s express intention not to create a public
forum controls our analysis. The government cannot
simply declare the First Amendment status of
property regardless of its nature and its public use.”).
Further, the physical characteristics of some medians
undercut the City’s stated intent. For example, if
some medians are park-like and have benches,
“memorial trees,” or “memorial plaques,” those
features might indicate that some of the affected
medians are in fact intended for pedestrian use,
including sitting or standing. Satawa v. Macomb Cty.
Road Comm’n, 689 F.3d 506, 522 (6th Cir. 2012)
(“[T]he record refutes the Board’s contention that,

41a
because Mound Road is a high-volume roadway, the
Board does not want people on the median. If this
were so, it would be strange to provide access to the
median via sidewalk, and to allow various groups to
erect benches, a gazebo, and plaques that could only
be read while standing on the median.”). The City’s
own statement that the affected medians are “largely
accessible only by jaywalking,” Aplee. Br. at 11
(emphasis added), implies that at least some medians
are accessible via crosswalk, which may also indicate
that at those medians are intended for standing or
sitting. See Satawa, 689 F.3d at 520 (“The median,
moreover, invites visitors. It contains park benches
and is accessible by sidewalk.”).
Finally, regarding their actual uses, the record
contains evidence that several medians have been
used for protected speech activities. And the record
indicates that Evans has used medians in Sandy City
for speech activities on numerous occasions, both
before and after the City enacted the Ordinance. The
record therefore indicates that at least some of the
affected medians have historically been used as public
fora.
Because the record contains evidence that could
support the conclusion that the affected medians are
public fora, Sandy City has not established as a
matter of law that the affected medians are nonpublic
fora.
III
On the record presented, I would conclude that the
Ordinance does not withstand intermediate scrutiny.
Further, Sandy City has not established as a matter

42a
of law that the medians are nonpublic fora. I would
reverse the district court’s grant of summary
judgment to the City and remand for further
proceedings.
I respectfully dissent.

43a
APPENDIX B
[FILED: July 5, 2019]
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

STEVE RAY EVANS,
Plaintiff Appellant,
v.
SANDY CITY, a
municipal corporation;
TIM DOLAN, Mayor of
Sandy City; KEVIN
THACKER, Sandy City
Police Chief; ROBERT
WALL, Sandy City
Attorney; DOUGLAS
JOHNSON, Sandy City
Prosecutor; R. MACKAY
HANKS, Sandy City
Prosecutor; SCOTT
COWDELL, Sandy City
Council Member;
MAREN BARKER,
Sandy City Council
Member; KRISTIN
COLEMAN-NICHOLL,

No. 17-4179

44a
Sandy City Council
Member; CHRIS
MCCANDLESS, Sandy
City Council Member;
STEVE FAIRBANKS,
Sandy City Council
Member; LINDA
MARTINEZ SAVILLE,
Sandy City Council
Member; STEPHEN P.
SMITH, Sandy City
Council Member; C.
TYSON, Sandy City
Police Department; C.
PINGREE, Sandy City
Police Department; J.E.
BURNS, Sandy City
Police Department;
JOHN DOE I-XX, Sandy
City Police Department,
Defendants Appellees.

Appeal from the United States District Court
for the District of Utah
(D.C. No. 2:17-CV-00408-BSJ)
Angela H. Elmore, Utah Legal Clinic Foundation
(John Robinson, Jr., The Law Office of John Robinson,
Jr., with her on the brief), Salt Lake City, Utah, for
Plaintiff-Appellant.

45a
Troy L. Booher, Zimmerman Booher (Freyja R.
Johnson, Zimmerman Booher; Michael D. Black, Parr
Brown Gee & Loveless; David C. Reymann, Parr
Brown Gee & Loveless, with him on the brief), Salt
Lake City, Utah, for Defendants-Appellees.
Before BRISCOE, BALDOCK, and EID, Circuit
Judges.
BALDOCK, Circuit Judge.
In 2016, the Sandy City, Utah city council adopted
an ordinance making it illegal for any person “to sit or
stand, in or on any unpaved median, or any median of
less than 36 inches for any period of time.” Sandy City
Traffic Code, Article 16, Section 299.1 (the
Ordinance). After the Sandy City council adopted the
Ordinance, Plaintiff-Appellant Steve Ray Evans
received four citations for violating the Ordinance
when he stood on narrow or unpaved medians. Evans
filed suit against the City and many of its officials
under 42 U.S.C. § 1983 in the district court of Utah,
alleging the Ordinance is facially invalid because it
violates the First Amendment right to free speech.
Evans also asked the district court to grant his
request for a preliminary injunction. The City filed a
motion for summary judgment and the court allowed
discovery. After a hearing on the motion, the district
court denied Evans’ preliminary injunction and
granted summary judgment in favor of the City
because the Ordinance was a valid time, place, or

46a
manner restriction on speech. 1 Evans appealed,
arguing the district court incorrectly applied the time,
place, or manner standard and wrongly granted
summary judgment because the City did not satisfy
its evidentiary burden. Exercising jurisdiction under
28 U.S.C. § 1291, we affirm.
I.
We review a district court’s summary judgment
ruling de novo, applying the same standard as the
district court. iMatter Utah v. Njord, 774 F.3d 1258,
1262 (10th Cir. 2014).
Summary judgment is
appropriate “if the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). In reviewing a motion for
summary judgment, “we review the facts and all
reasonable inferences those facts support, in the light
most favorable to the nonmoving party.” iMatter, 774
F.3d at 1262 (citation omitted). Because this decision
implicates First Amendment freedoms, we perform an
independent examination of the whole record in order
to ensure that the judgment protects the right of free
expression. Faustin v. City and Cty. of Denver, 423
F.3d 1192, 1196 (10th Cir. 2005). Here, the City
carries the burden to justify the Ordinance with
uncontested facts. See iMatter, 774 F.3d at 1263.

Mr. Evans also alleged the Ordinance violated the Eighth
Amendment, the Fourteenth Amendment Equal Protection
Clause, the Dormant Commerce Clause, and Title VII of the Civil
Rights Act. The district court dismissed each of Evans’ claims
with prejudice and granted summary judgment in favor of the
City. Mr. Evans does not appeal any of those claims.
1

47a
II.
Today, we confront whether the Ordinance, which
prohibits the sitting or standing on medians that are
unpaved or less than 36 inches wide (hereinafter
“affected medians”), violates the First Amendment.
The First Amendment, applicable to the States
through the Fourteenth Amendment, prohibits the
enactment of laws “abridging the freedom of speech.”
U.S. Const. amend. I. The First Amendment “applies
not only to legislative enactments, but also to less
formal governmental acts, including city policies,”
such as the Ordinance at issue. Hawkins v. City and
Cty. of Denver, 170 F.3d 1281, 1286 (10th Cir. 1999).
A.
As a threshold matter, we must first consider
whether the activity in question constitutes protected
speech under the First Amendment. See Cornelius v.
NAACP Legal Def. & Educ. Fund., Inc., 473 U.S. 788,
797 (1985) (“[I]f [the speech] is not [protected], we
need go no further.”). Here, Evans contends the
Ordinance restricts his ability to panhandle and
solicit financial support. According to the Supreme
Court, “the solicitation of charitable contributions is
protected speech.” Riley v. Nat’l Fed’n of the Blind of
N.C., Inc., 487 U.S. 781, 789 (1988). Neither the
Supreme Court nor this Circuit has directly addressed
whether panhandling is protected speech under the
First Amendment but several of our sister circuits
who reached the question determined panhandling is
protected. See Reynolds v. Middleton, 779 F.3d 222,
225 (4th Cir. 2015); Speet v. Schuette, 726 F.3d 867,
870 (6th Cir. 2013); Smith v. City of Fort Lauderdale,
177 F.3d 954, 956 (11th Cir. 1999); Loper v. N.Y.C.

48a
Police Dep’t, 999 F.2d 699, 704 (2d Cir. 1993).
Assuming without deciding panhandling is protected
under the First Amendment, as we will explain later,
the Ordinance is a valid time, place, or manner
restriction. See Gresham v. Peterson, 225 F.3d 899,
904-05 (7th Cir. 2000) (after “assuming . . . some
panhandler speech would be protected by the First
Amendment,” the Seventh Circuit applied the First
Amendment “time, place, and manner” framework.).
We note that while solicitation and panhandling
laws are on the books in cities across the United
States and challenges to such laws have been
similarly widespread, an astute reader will recognize
the Ordinance challenged here is not a ban on
panhandling or solicitation like many other
ordinances. Instead, the Ordinance is a restriction on
sitting or standing on narrow and unpaved medians.
This distinction will become important later, but for
now we assume Evans’ form of speech, panhandling,
is protected speech.
B.
We turn next to the nature of the forum affected by
the
Ordinance.
Under
First
Amendment
jurisprudence, “the extent to which the Government
can control access [to Government property] depends
on the nature of the relevant forum.” Cornelius, 473
U.S. at 800. The Supreme Court has identified three
categories of Government property subject to First
Amendment analysis: (1) traditional public fora; (2)
designated public fora; and (3) nonpublic fora. See
Perry Educ. Ass’n v. Perry Local Educators’ Ass’n, 460
U.S. 37, 45-46 (1983). A traditional public forum is a
place that “by long tradition or by government fiat

49a
ha[s] been devoted to assembly and debate.” Id. at 45.
“Because a principal purpose of traditional public fora
is the free exchange of ideas, speakers can be excluded
from a public forum only when the exclusion is
necessary to serve a compelling state interest and the
exclusion is narrowly drawn to achieve that interest.”
Cornelius, 473 U.S. at 800 (citing Perry, 460 U.S. at
45). In contrast, designated public fora are places that
are not generally open to the public for First
Amendment activity and “are created by purposeful
governmental action” to allow speech activity.
Arkansas Educ. Television Com’n v. Forbes, 523 U.S.
666, 677 (1998). A nonpublic forum is anything that
does not qualify as a traditional or designated public
forum. Access to a nonpublic forum “can be restricted
as long as the restrictions are ‘reasonable and [are]
not an effort to suppress expression merely because
public officials oppose the speaker’s view.’” Cornelius,
473 U.S. at 800 (quoting Perry, 460 U.S. at 46)
(alteration in original).
Evans contends “[m]edians are widely considered
[traditional] public fora” whereas the City contends
the affected medians are nonpublic fora. The district
court did not decide the issue, concluding the forum
designation was not dispositive since the Ordinance
was valid even under the stricter standard for
traditional public fora. We agree with the district
court. As we will explain, the Ordinance is a valid
time, place, or manner regulation; thus, we need not
decide if the affected medians are more appropriately
classified as nonpublic fora. 2
Although courts have concluded medians that resemble
parks are traditional public fora, we have serious reservations
2

50a
C.
Assuming without deciding the affected medians are
traditional public fora, we turn to whether the
Ordinance is a valid restriction of protected speech. It
is well-settled “that even in a public forum the
government may impose reasonable restrictions on
the time, place, and manner of protected speech,
provided the restrictions ‘are justified without
reference to the content of the regulated speech, that
they are narrowly tailored to serve a significant
governmental interest, and that they leave open
ample alternative channels for communication of
information.’” Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989) (quoting Clark v. Cmty. for Creative
Non-Violence, 468 U.S. 288, 293 (1984)). We address
each of the three requirements in turn.
1.

Content Neutrality

Recall, the Ordinance proscribes any person “to sit
or stand, in or on any unpaved median, or any median
of less than 36 inches for any period of time.” Sandy
City Traffic Code, Article 16, Section 299.1. No one
disputes the Ordinance is facially content neutral
because it “does not draw content-based distinctions
on its face.” McCullen v. Coakley, 134 S. Ct. 2518,
2531 (2014). The law applies evenhandedly to all who
extending such conclusions to the affected medians in this case,
some of which are 17-inch traffic dividers that have hardly been
“by long tradition . . . devoted to assembly and debate.” Perry,
460 U.S. at 45; see, e.g., Warren v. Fairfax Cty., 196 F.3d 186, 189
(4th Cir. 1999) (“We hold that the Center Island mall is a
traditional public forum” because it is “best characterized as a
park or mall.”). Nevertheless, we assume without deciding the
affected medians are traditional public fora.

51a
sit or stand on narrow or unpaved medians
irrespective of the content of their message.
Even though the Ordinance is content-neutral on its
face, the Ordinance may nevertheless be contentbased if the government adopted the Ordinance
“because of disagreement with the message it
conveys.” Ward, 491 U.S. at 791. “The government’s
purpose is the controlling consideration. A regulation
that serves purposes unrelated to the content of
expression is deemed neutral, even if it has an
incidental effect on some speakers or messages but
not others.” Id. (emphasis added). “Government
regulation of expressive activity is content neutral so
long as it is ‘justified without reference to the content
of the regulated speech.’” Id. (quoting Cmty. for
Creative Non-Violence, 468 U.S. at 293).
The record indicates the City justified the
Ordinance without reference to the content of the
regulated speech. Specifically, the City police captain
explained during a City council meeting that people
sitting or standing on narrow or unpaved medians are
a public safety hazard. The police captain explained
the Ordinance sought to limit that danger because
there had been “several close calls” where accidents
involving pedestrians and vehicles “could [have]
be[en] devastating.”
The City’s public safety
justification is further confirmed by the process the
City prosecutor used to draft the Ordinance. First, the
City prosecutor received notice the police “were
having some problems with safety issues” with people
falling into traffic. To deal with this problem, the City
prosecutor set out to draft the Ordinance. He
gathered information by surveying the City’s

52a
medians.
Then, he drafted the Ordinance to
exclusively target medians where it was dangerous to
sit or stand for any length of time, regardless of the
speech that might occur. In his judgment, paved
medians less than 36-inches wide were dangerous to
sit or stand on because they were too narrow to
provide refuge from passing cars. He also concluded
unpaved medians, which were typically covered in
rocks, boulders, and in some cases shrubs, were
dangerous because pedestrians could easily lose their
footing or trip on uneven surfaces. At all times, the
City has maintained its sole justification for the
Ordinance is to promote public safety.
In spite of this clear public safety purpose, Evans
contends the Ordinance is not content neutral because
the City acted, in part, because it disagreed with
panhandling. Evans suggests the City’s public safety
justification is a façade for its improper motive to
suppress panhandlers’ speech. In support, Evans
points to one question and one statement made by two
councilmembers at the City council meeting where the
police captain presented the proposed Ordinance.
One councilmember asked, “we’re going to give
homeless people citations?” No reasonable factfinder
could conclude this question provides evidence the
City adopted the Ordinance “because of a
disagreement with the content” of panhandlers’
speech.
At most, the question reveals one
councilmember acknowledged the Ordinance would
have an incidental effect on panhandling. But it is
well-settled such an incidental effect on some
speakers or messages does not make a regulation
content-based. See Ward, 491 U.S. at 791 (“A
regulation that serves purposes unrelated to the

53a
content of expression is deemed neutral, even if it has
an incidental effect on some speakers or messages but
not others.”); see also City of Renton v. Playtime
Theaters, Inc., 475 U.S. 41, 49 (1986) (classifying a
restriction on the location of adult movie theaters as
content neutral because the ordinance was aimed not
at the content of the films shown, but rather at the
secondary effects of such theaters on the surrounding
community); McCullen, 134 S. Ct. at 2531 (classifying
an ordinance that exclusively restricted speech at
abortion clinics as content neutral because the
ordinance was aimed at public safety, even though it
had an incidental effect on abortion-related speech).
Therefore, this question most certainly does not turn
the Ordinance into a content-based restriction.
Additionally, Evans contends a councilmember’s
statement, “And I don’t even know who stops there to
give them anything in the middle of traffic as it’s
going,” shows the City adopted the Ordinance because
it disagreed with panhandling.
Like the
councilmember’s question, no reasonable factfinder
could conclude the statement provides evidence the
City adopted the Ordinance because of a
disagreement with the content of panhandler’s
speech. This is especially true when the statement is
read in context.
The councilmember’s entire
statement and the City police captain’s response
indicates the councilmember endorsed the Ordinance
to promote public safety:
I drove 106th the other day at about noon and
there were four people standing on [a] median
and they were talking, you know, this group of
guys were just talking there and, boy, if one of

54a
them would have stepped backwards a foot—
’cause they were on [a median] narrower than
three feet—[Police Captain: “Correct”]—they
would’ve been just wiped out—[Police
Captain: “I believe it is approximately 16
inches”]—Really it was scarey [sic] for me and
it’s for their own safety, you know. And I don’t
even know who stops there to give them
anything in the middle of traffic as it’s going.
This statement supports the City’s public safety
justification
for
passing
the
Ordinance.
Conspicuously, the statement says nothing about the
content of panhandlers’ speech, let alone provides
evidence the City passed the Ordinance because it
disagreed with their message.
Accordingly, the
3
Ordinance is content neutral.
2.

Narrowly Tailored to Serve a Significant
Government Interest

“Even though the [Ordinance] is content neutral, it
still must be ‘narrowly tailored to serve a significant
governmental interest.’” McCullen, 134 S. Ct. at 2534
(quoting Ward, 491 U.S. at 796). No one disputes the
Ordinance serves a significant governmental interest
in promoting public safety. In fact, even Evans
acknowledges “[t]here’s no real dispute about whether
keeping cars and pedestrians away from each other
would, at least in some way, make Sandy City a safer
place.” Op. Br. at 25 (citing Int’l Soc’y for Krishna
Evans also argues we should consider City councilmembers’
post-enactment comments as evidence relevant to their
motivations for passing the Ordinance. Evans cites no authority
to support the use of such comments as bearing on legislative
purpose.
3

55a
Consciousness v. City of Baton Rouge, 668 F. Supp.
527, 530 (M.D. La. 1987) (“It requires neither
towering intellect nor an expensive ‘expert’ study to
conclude that mixing pedestrians and temporarily
stopped motor vehicles in the same space at the same
time is dangerous.”)). With both parties in agreement,
we need not belabor the point: the Ordinance
promotes public safety in a direct and effective way by
keeping pedestrians off thin slices of pavement and
unpaved traffic dividers where pedestrians could be
injured by passing traffic.
We turn, instead, to the hotly contested question:
whether the Ordinance is narrowly tailored to serve
that interest. To be narrowly tailored, the Ordinance
must not “burden substantially more speech than is
necessary to further the government’s legitimate
interests.” Ward, 491 U.S. at 799. In other words, the
government “may not regulate expression in such a
manner that a substantial portion of the burden on
speech does not serve to advance its goals.” McCullen,
134 S. Ct. at 2535 (quoting Ward, 491 U.S. at 799).
This requirement demands a “close fit between ends
and means” to ensure speech is not sacrificed for
efficiency. Id. at 2534. We look “to the amount of
speech covered by the ordinance and whether there is
an appropriate balance between the affected speech
and the governmental interests that the ordinance
purports to serve.” Watchtower Bible & Tract Soc’y of
N.Y., Inc. v. Village of Stratton, 536 U.S. 150, 165
(2002).
At the same time, such regulation “need not be the
least restrictive or least intrusive means of doing so.
Rather, the requirement of narrow tailoring is

56a
satisfied ‘so long as the . . . regulation promotes a
substantial government interest that would be
achieved less effectively absent the regulation.’”
Ward, 491 U.S. at 798-99 (quoting United States v.
Albertini, 472 U.S. 675, 689 (1985)). “So long as the
means chosen are not substantially broader than
necessary to achieve the government’s interest, . . . the
regulation will not be invalid simply because a court
concludes that the government’s interest could be
adequately served by some less-speech-restrictive
alternative.” Id. at 800. “‘The validity of [time, place,
or manner] regulations does not turn on a judge’s
agreement with the responsible decisionmaker
concerning the most appropriate method for
promoting significant government interests’ or the
degree to which those interest should be promoted.”
Id. at 800 (quoting Albertini, 472 U.S. at 689).
Here, the City adopted the Ordinance to promote
“public health, safety and [the] welfare of the City”
after there had been several “close calls” where
individuals reported pedestrians on medians in
dangerous situations. Evans nevertheless contends
the Ordinance is not narrowly tailored. To this end,
Evans makes three main arguments. We address
each in turn.
a.
First, relying on McCullen, Evans claims the
Ordinance places a substantial burden on speech
because it requires him to sit or stand a substantial
distance away from the most effective places to
communicate with his target audience. In McCullen,
the Supreme Court determined an ordinance
requiring a buffer zone around abortion clinics

57a
imposed a substantial burden on speech and
“effectively stifled petitioners’ message” because the
ordinance prevented petitioners from engaging in
close, personal conversations with their target
audience of women entering the clinics. McCullen,
134 S. Ct. at 2536-37. Similarly, Evans claims
standing on medians where he can talk to drivers in
vehicles is the most effective way to communicate
with his target audience and the Ordinance prevents
him from doing so.
We are not persuaded. Evans received two citations
for standing on a paved 17-inch median. A mere ten
feet away from where he was cited, the median is
wider than 36 inches and is therefore unaffected by
the Ordinance. We simply cannot accept this tenfoot difference on the same median as a substantial
burden on speech. In compliance with the Ordinance,
Evans can stand on wide, paved medians to
communicate effectively with his target audience.
Unlike McCullen, the Ordinance does not effectively
stifle Evans’ ability to communicate his message to his
target audience.
b.
Second, Evans contends the City failed to show it
properly balanced speech against safety. To ensure a
regulation does not burden substantially more speech
than necessary to further the government’s interests,
narrow tailoring requires “a close fit between ends
and means” to ensure speech is not sacrificed for
efficiency. McCullen, 134 S. Ct. at 2534-35 (citing
Nat’l Fed’n of the Blind, 487 U.S. at 795). Fit matters,
but narrow tailoring “does not require perfect
tailoring.
The doctrine requires only that a

58a
challenged
speech
restriction
not
burden
‘substantially’ more speech than is necessary to
further the government’s interest.” Cutting v. City of
Portland, 802 F.3d 79, 86 (1st Cir. 2015).
Evans contends the City did not meet its burden to
justify the fit between the ends and the means when
it failed to “compile any data, statistics, or accident
reports.” According to Evans, “[u]nder McCullen,
Sandy City’s failure to conduct research and analysis
is dispositive. . . . Indeed, that’s the grit of McCullen:
governments must provide real evidence to justify
their public safety concerns.” In McCullen, the
Supreme Court explained evidence of a problem at one
abortion clinic at one time did not justify the burden
on other clinics at other times. Specifically, the
Supreme Court stated, “Respondents point us to no
evidence that individuals regularly gather at other
clinics, or at other times in Boston, in sufficiently
large groups to obstruct access. For a problem shown
to arise only once a week in one city at one clinic,
creating 35-foot buffer zones at every clinic across the
Commonwealth [of Massachusetts] is hardly a
narrowly tailored solution.” McCullen, 134 S. Ct. at
2539. The Supreme Court’s language does not create
a new evidentiary requirement for governments to
compile data or statistics. Instead, governments bear
the same burden to show a regulation does not
“burden substantially more speech than is necessary
to further the government’s legitimate interests.” Id.
at 2535 (quoting Ward, 491 U.S. at 799).
Here, a direct relationship exists between the City’s
goal of promoting public safety and the restriction on
speech it selected. The Ordinance is limited only to

59a
those medians where it is unsafe to sit or stand. The
City police captain—a City official who had years of
experience dealing with unsafe situations involving
pedestrians on medians in Sandy City—conducted a
survey of the medians in Sandy City. The City
prosecutor also surveyed the medians within the City.
Based on what they observed, the City drafted the
Ordinance limiting it only to those medians where it
would be dangerous to sit or stand at any time of day,
at any traffic speed or volume. The City prosecutor
explained he included unpaved medians where the
“footing isn’t uniform,” which posed a tripping hazard.
He included narrow medians after walking on them
and determining what width would provide sufficient
refuge from passing traffic.
Such evidence is
sufficient to satisfy the City’s burden to show the
Ordinance does not “burden substantially more
speech than is necessary to further the government’s
legitimate interests.” Id. (quoting Ward, 491 U.S. at
799). The Ordinance only prohibits sitting or standing
on narrow or unpaved medians where it would be
dangerous to do so. This is the sort of close fit the
narrow tailoring requires.
Evans also contends the City failed to satisfy its
evidentiary burden because it did not provide accident
reports or complaints regarding medians in all parts
of the City. Evans would have this Court require the
City to restrict speech in a piece-meal fashion, median
by median, only upholding an ordinance after there is
a report of a “close call” on a particular median, or
worse, someone gets injured. The First Amendment
“prevents the government from too readily
‘sacrificing] speech for efficiency.’” Id. at 2534-35
(quoting Nat’l Fed’n of the Blind, 487 U.S. at 795). It

60a
does not require the government to wait for accidents
to justify safety regulations.
See Traditionalist
American Knights of the Ku Klux Klan v. City of
Desloge, 775 F.3d 969, 975 (8th Cir. 2014) (“The fact
that a pedestrian had not yet been hit while
distributing materials in the city did not mean that it
was not dangerous, for a government need not wait for
accidents to justify safety regulations.”) (quotations
omitted).
c.
Third, Evans argues the Ordinance is not narrowly
tailored because the City did not demonstrate
alternative measures that burden substantially less
speech would fail to promote public safety. According
to Evans, since the City did not “prove that it actually
tried other methods to address the problem,” such as
alternatives that distinguish between high and low
traffic areas, traffic volume or time of day, we should
strike down the Ordinance as not narrowly tailored.
Op. Br. at 31. (quoting Reynolds, 779 F.3d at 231
(emphasis in original)).
“[A] regulation of the time, place, or manner of
protected speech must be narrowly tailored to serve
the
government’s
legitimate,
content-neutral
interests but that it need not be the least restrictive
or least intrusive means of doing so.” Ward, 491 U.S.
at 798. “So long as the means chosen are not
substantially broader than necessary to achieve the
government’s interest, . . . the regulation will not be
invalid simply because a court concludes that the
government’s interest could be adequately served by
some less-speech-restrictive alternative.” Id. at 800
(emphasis added). In other words, we do not even

61a
reach the question of whether “the government’s
interest could be adequately served by some lessspeech-restrictive alternative” if the Ordinance is not
“substantially broader than necessary” to promote the
City’s interest in public safety. Id. McCullen does not
change that. In McCullen, the Court determined the
means chosen were substantially broader than
necessary to achieve the government’s interest.
Accordingly, the Court explained to be narrowly
tailored, “the government must demonstrate that
alternative measures that burden substantially less
speech would fail to achieve the government’s
interests, not simply that the chosen route is easier.”
McCullen, 134 S. Ct. at 2540. Though the Court in
McCullen evaluated evidence offered in support of
respondents’ claim that they had attempted
alternative measures, nothing in McCullen indicates
that the Court sought to modify Ward’s clear rule. See
id.
Here, the Ordinance is not substantially broader
than necessary to promote public safety. On both
narrow and unpaved medians, the restriction on
speech is directly tailored to the danger. We will not
invalidate the Ordinance “simply because there is
some imaginable alternative that might be less
burdensome on speech.” Ward, 491 U.S. at 797
(quoting Albertini, 472 U.S. at 689). The City is not
required to ignore the danger posed by standing on a
17-inch sliver of concrete just because lighter traffic
may make it less likely one will be hit by a car. The
Ordinance is narrowly tailored to the public safety
problem the City sought to address. Because the
means fit closely with the ends, First Amendment
jurisprudence does not require the City to prove that

62a
some imaginable alternative would fail to achieve the
government’s interest in public safety.
3.

Ample Alternative Channels of
Communication

Finally, a reasonable time, place, or manner
restriction of protected speech must “leave open ample
alternative
channels
for
communication
of
information.” Ward, 491 U.S. at 791. “While the First
Amendment does not guarantee the right to employ
every conceivable method of communication at all
times and in all places, a restriction on expressive
activity may be invalid if the remaining modes of
communication are inadequate.” City Council of L.A.
v. Taxpayers for Vincent, 466 U.S. 789, 812 (1984)
(citations omitted). To determine whether alternative
channels are adequate, courts assess in part the
speaker’s ability to reach his or her target audience.
Ward, 491 U.S. at 802.
No one disputes the Ordinance leaves open many
alternative channels for Evans to communicate,
including paved medians wider than 36 inches, every
city sidewalk, and every city park. Despite the
available alternatives, Evans contends sidewalks and
parks are not adequate because he cannot reach his
target audience—drivers in vehicles—as effectively
compared to medians.
Setting aside whether Evans can “effectively”
communicate with his target audience on sidewalks
and in parks, the City argues roughly 7,000 linear feet
of wide, paved medians in the City remain unaffected
by the Ordinance. Evans does not dispute that. And
critically, at no point does Evans distinguish his

63a
ability to communicate with his target audience on
affected or unaffected medians.
Evans’ target
audience is indistinguishable on affected and
unaffected medians. Recall, the City cited Evans
twice for standing on a narrow median. Only ten feet
away from where the City cited Evans, the paved
median is wider than 36 inches and therefore
unaffected by the Ordinance. Given Evans “prefers to
stand on medians” and he never argued wide, paved
medians were inadequate to effectively communicate
with drivers in vehicle, the 7,000 linear feet of
unaffected medians in the City provide Evans ample
alternative channels for communication with his
target audience.
III.
The Ordinance—narrow in its purpose, design, and
effect—does not discriminate based on content, is
narrowly drawn to serve an important governmental
interest, and permits Evans to express his views,
including the solicitation of financial support, on
literally thousands of linear feet within Sandy City.
The judgment of the district court is AFFIRMED.

64a
No. 17-4179, Evans v. Sandy City
BRISCOE, Circuit Judge, dissenting.
I respectfully dissent. In my view, Sandy City has
not carried its burden to establish that the Ordinance
is narrowly tailored to serve a significant
governmental interest.
Nor has Sandy City
established that the affected medians are nonpublic
fora. I would reverse the district court’s grant of
summary judgment to the City and remand for
further proceedings.
I
As the majority acknowledges, when a regulation is
content neutral, 1 “the requirement of narrow tailoring
is satisfied so long as the regulation promotes a
substantial government interest that would be
achieved less effectively absent the regulation, and
does not burden substantially more speech than is
necessary to further the government’s legitimate
interests.” Wells v. City & Cty. of Denver, 257 F.3d
1132, 1148 (10th Cir. 2001) (quotations and ellipsis
omitted). Here, the City has failed to show that the
Ordinance does not burden substantially more

I agree with the majority that the Ordinance is content
neutral.
1

65a
speech 2 than is necessary to further the City’s
legitimate interest in public safety. 3
A
To determine whether the Ordinance is narrowly
tailored, we first look, as the majority did, to the
amount of speech it burdens. See Watchtower Bible
& Tract Soc’y of N.Y., Inc. v. Village of Stratton, 536
U.S. 150, 165 (2002) (“We must . . . look . . . to the
amount of speech covered by the ordinance and
whether there is an appropriate balance between the
affected speech and the [state] interests that the
ordinance purports to serve.”). Contrary to the

The majority assumes that panhandling is protected speech,
and I would affirmatively conclude that it is. As the majority
notes, the Supreme Court has stated that “the solicitation of
charitable contributions is protected speech.” Maj. Op. at 4
(quoting Riley v. Nat’l Fed’n of the Blind, 487 U.S. 781, 789
(1988)); see also Village of Schaumburg v. Citizens for a Better
Env’t, 444 U.S. 620, 632 (1980) (“[C]haritable appeals for funds,
on the street or door to door, involve a variety of speech
interests—communication of information, the dissemination and
propagation of views and ideas, and the advocacy of causes—that
are within the protection of the First Amendment.”). And every
one of our sister circuits to reach the question has concluded that
panhandling is protected speech. See Reynolds v. Middleton, 779
F.3d 222, 225 (4th Cir. 2015); Speet v. Schuette, 726 F.3d 867,
870 (6th Cir. 2013); Smith v. City of Fort Lauderdale, 177 F.3d
954, 956 (11th Cir. 1999); Loper v. N.Y.C. Police Dep’t, 999 F.2d
699, 704 (2d Cir. 1993); accord Comite de Jornaleros v. City of
Redondo Beach, 657 F.3d 936, 945 (9th Cir. 2014) (en banc)
(holding that solicitation is protected speech).
2

I also agree with the majority that the City’s interest in
public safety is legitimate and substantial.
3

66a
majority’s view, I would conclude that the Ordinance
places a substantial burden on speech.
The Ordinance bans all speech on affected medians
at all times. See Sandy City Traffic Code, Article 16,
Section 299.1. The Ordinance also applies to a
substantial number of Sandy City’s medians.
Although the record does not include the exact
number of affected medians, the record indicates that
this number is significant, as it contains “over 100
pages of photographs depicting nearly every different
type” of affected median. Aplt. Reply at 4; accord
Aplee. App., Vol. II at 109-276.
Because the
Ordinance prohibits all expressive activity at all times
on many medians throughout Sandy City, it
“serious[ly] burdens . . . speech.” McCullen v. Coakley,
573 U.S. 464, 487 (2014). 4
B
In conducting the narrowly tailored analysis, we
must look to “the specific . . . interest articulated by
the City.” Citizens for Peace in Space v. City of Colo.
Springs, 477 F.3d 1212, 1223 (10th Cir. 2007).
“Indeed, to assess whether a restriction is an
The majority evaluates the Ordinance’s burden on speech
only with reference to whether the Ordinance renders Evans’s
panhandling less effective. To be sure, much of Evans’s
argument regarding the Ordinance’s burden on speech focuses
on the decreased efficacy of his speech because he is prohibited
from using many medians to panhandle. But Evans’s narrowtailoring argument also argues that the Ordinance applies to
numerous medians throughout the City. See Aplt. Br. at 32
(“Given that the City’s evidence supported a conclusion that
there were, at most, a few problem areas in Sandy, the City
needed to try using less restrictive tools before it implemented a
city-wide ban.”).
4

67a
appropriate ‘fit’ to some important government
interest, it is necessary that the government interest
be specifically defined.” Id. Here, the City enacted
the Ordinance because it was “worried about people
falling into traffic.” Aplt. App., Vol. II at 291. When
addressing the City Council in support of the
Ordinance, Sandy City Police Chief O’Neal described
the safety danger as follows: “If someone trips and
steps out into traffic, especially with the speed that
traffic goes through [one specific] area, it could be
devastating.” Aplt. App., Vol. I at 177. The First
Amendment analysis must therefore examine the fit
between the City’s stated interest, preventing people
from falling off medians into traffic, and the City’s
chosen means, banning all sitting or standing on all
unpaved medians and all paved medians narrower
than 36 inches.
C
After identifying the specific interest the City
articulates, we must determine if the Ordinance is
narrowly tailored to serve that interest; that is, if the
Ordinance “burden[s] substantially more speech than
is necessary to further the [City’s] legitimate
interests.” Ward v. Rock Against Racism, 491 U.S.
781, 799 (1989). “[R]estrictions on the time, place, or
manner of protected speech are not invalid simply
because there is some imaginable alternative that
might be less burdensome on speech.” Id. at 797.
Rather, “[t]he scope of the restriction on speech must
be reasonably, though it need not be perfectly,
targeted to address the harm intended to be
regulated.” 44 Liquormart, Inc. v. Rhode Island, 517
U.S. 484, 529 (1996) (O’Connor, J., concurring).

68a
When deciding on the scope of the Ordinance, Sandy
City Police Captain Justin Chapman and Sandy City
Prosecutor Doug Johnson visited medians in Sandy
City to determine which were “safe” and which were
“unsafe.” See Aplt. App., Vol. II at 292-93. The
majority characterizes Chapman’s and Johnson’s
process as a “survey of the medians in Sandy City.”
Maj. Op. at 15; accord id. at 8. I find that description
generous, to say the least.
Johnson concluded which medians were “safe”
based on whether, while standing on a median, he felt
he was likely to be hit by a moving vehicle. Johnson
made this determination “anecdotally,” Aplt. App.,
Vol. II at 293, employing the following methodology:
I would just stand on a median and go, “This
is scary. I just almost got hit.” And then I
would walk somewhere where it was just a
little bit wider and go, “This is scary. I almost
got hit.” And then I would walk somewhere
that was just a little bit wider, until finally I
found a place where I said, “I don’t think I
could get hit there.” And . . . then I noted that
place, went back to the police department,
asked them to go get measurements for where
I was standing, and went from there.
Id. Johnson conducted this experiment on one median
in Sandy City.
Chapman visited “[a] lot” of medians throughout
Sandy City and measured the width of medians
throughout “the main arteries [of Sandy City] that . .
. had obvious islands.” Id. at 357-58. Chapman
“didn’t feel any of the islands regardless [of width]

69a
were safe to be on.” Id. at 359. After visiting the
medians, Chapman concluded that the “not smooth,”
“unpaved medians” had “landscaping that would
cause a tripping hazard.” Id. This conclusion was
based on his
feeling, if you had a person that was walking,
standing, whatever they’re doing in the area
where cars are whizzing by, if it’s unpaved, or
uneven . . . , you have the potential to trip on
something like that . . . . That seemed it could
be a little bit more unsafe because whether or
not you’re specifically choosing a path one way
or another, you simply catch your toe on a rock
and boom, you’re in the traffic.
Id. at 359-60.
In addition to relying on Johnson’s and Chapman’s
opinions, the City justifies the Ordinance by pointing
to complaints that the Sandy City police received
about people on medians. 5 The record contains
twenty-nine documented complaints between October
7, 2014, and April 29, 2017, twenty-eight of which
Although the City cites complaints as evidence that the
Ordinance was necessary, the majority does not rely on the
complaints at all, stating only that the First Amendment “does
not require the government to wait for accidents to justify safety
regulations.” Maj. Op. at 16. Be that as it may, the First
Amendment does require the government to “demonstrate that
the recited harms,” here, the danger of people falling off medians
into traffic, “are real, not merely conjectural, and that the
regulation will in fact alleviate those harms in a direct and
material way.” Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622,
664 (1994) (plurality opinion).
5

70a
relate to people standing on Sandy City medians. 6
Most of the complaints arise from one small area of
the city. Indeed, at least twenty-two of the twentynine complaints relate to locations within half a mile
of each other, all of which are near on- and off-ramps
for Interstate Highway 15. Based on Johnson’s and
Chapman’s surveys and the complaints regarding
people in the median, Sandy City enacted the
Ordinance, which states in full:
It shall be illegal for any individual to sit or
stand, in or on any unpaved median, or any
median of less than 36 inches for any period of
time.
Sandy City Traffic Code, Article 16, Section 299.1.
I view this record as inadequate to support the
City’s ban of all expressive activities in numerous
medians throughout the city. First, Johnson and
Chapman articulate no objective basis for their
opinions.
Rather, Johnson characterized his
determination of which medians were safe as being
made “anecdotally,” Aplt. App., Vol. II at 293, and
Chapman relied on his “feeling” to determine which
medians “seemed [they] could be a little bit more
unsafe,” id. at 359-60. 7 In the First Amendment
One complaint does not seem related to an individual
standing on a median at all. See Aplee. App., Vol. II at 303
(“[M]ale in traffic . . . on foot . . . in and out of traffic.”).
6

The 36-inch width limitation did not stem from Chapman’s
opinions regarding safety. Rather, Chapman “didn’t feel any of
the islands regardless [of width] were safe to be on.” Aplt. App.,
Vol. II at 359. Chapman’s “years of experience dealing with
unsafe situations involving pedestrians on medians in Sandy
7

71a
context, this is not enough. See Turner Broad. Sys.,
Inc. v. FCC, 520 U.S. 180, 196 (1997) (“[I]n the realm
of First Amendment questions,” the legislature “must
base its conclusions upon substantial evidence.”); see
also McCullen, 573 U.S. at 496 (“Given the vital First
Amendment interests at stake, it is not enough for
[the City] simply to say” that the Ordinance is
necessary.).
Second, the complaints the City submitted do not
indicate that the Ordinance is tailored to address the
City’s articulated interest in preventing people from
falling off medians into traffic. Even to the extent the
complaints support a conclusion that sitting or
standing on medians is in fact dangerous, 8 most of the
complaints pertain to one small part of the city. As
the Supreme Court noted in McCullen, “[f]or a
problem shown to arise only once a week in one city at
one clinic, creating 35-foot buffer zones at every clinic
across the Commonwealth is hardly a narrowly
tailored solution.” 573 U.S. at 493. Here, the
complaints indicate a problem that arises

City,” Maj. Op. at 15, therefore did not inform the Ordinance’s
width limitation.
Several of the complaints were regarding the mere presence
of individuals on medians and expressed no traffic-safety
concerns. See, e.g., Aplee. App., Vol. II at 287 (“[T]ransient
standing on the median asking for money for his infection.”); id.
at 312 (“Panhandler on the island stopping traffic and asking for
money.”); id. at 324 (indicating that a “panhandler” is in the
“middle of [the] road”); id. at 333 (“Panhandler on the median . .
. getting mad when being refused” and “spit on [the]
comp[lainant’s] truck.”).
8

72a
infrequently and in a single area of Sandy City. 9 The
City’s decision in this case to ban all sitting or
standing on many medians throughout the city is, as
in McCullen, “hardly a narrowly tailored solution.”
Id.
Further, the record does not reveal the
characteristics of the medians involved in the
complaints—whether the medians are narrower than
36 inches, wider than 36 inches, paved, or unpaved.
In other words, the record does not show whether the
Ordinance in fact addresses any problem the
complaints identified. So we are unable to determine
whether the problem the City identified from the
complaints—the potential for people to fall off
medians into traffic—would actually be addressed by
the Ordinance’s prohibitions. Absent such evidence of
tailoring—of a relationship between the end and the
means—the Ordinance fails. See, e.g., McCutcheon v.
Fed. Election Comm’n, 572 U.S. 185, 218 (2014) (“In
the First Amendment context, fit matters.”).
As drafted, the Ordinance burdens a substantial
amount of speech. And Sandy City has failed to show
that the Ordinance does not “burden substantially
more speech than is necessary to further” its interest
in preventing people from falling off medians into
traffic. Ward, 491 U.S. at 799. Given the amount of
speech it burdens, the interest the City identified to
The record indicates that the twenty-nine complaints in the
record could be underinclusive. Regardless, Chapman—who
testified that he personally fielded complaints that may not have
been documented—stated that “[m]ost of’ the complaints related
to medians “at intersections” and involved the main roads and
places with freeway access. Aplt. App., Vol. II at 353.
9

73a
justify that burden, and the lack of fit between the
two, the Ordinance is not narrowly tailored and does
not survive intermediate scrutiny.
D
The Ordinance also fails intermediate scrutiny
because the City has not shown that “alternative
measures that burden substantially less speech would
fail to achieve [its] interests.” McCullen, 573 U.S. at
495. The majority avoids analyzing the availability of
alternative measures by stating that “we do not even
reach the question of whether ‘the government’s
interest could be adequately served by some lessspeech-restrictive alternative’ if the Ordinance is not
‘substantially broader than necessary’ to promote the
City’s interest in public safety.” Maj. Op. at 16-17
(quoting Ward, 491 U.S. at 800). But the majority
cites to no authority for this statement which, indeed,
has no support in the law. 10 As we have explicitly
stated, “[t]he Supreme Court has not discouraged
courts from considering alternative approaches to
achieving the government’s goals when determining
whether a content-neutral regulation is narrowly
tailored to advance a significant government
interest.” Verlo v. Martinez (Verlo I), 820 F.3d 1113,
1135 (10th Cir. 2016). And the Supreme Court itself
has looked to the government’s other options for
addressing the stated interest to determine whether a
challenged regulation is substantially broader than
necessary and thereby violates the First Amendment.

Even Sandy City does not argue that the court need not
evaluate the availability of alternative measures in conducting
its narrowly tailored analysis.
10

74a
In McCullen, the Supreme Court’s entire narrowtailoring analysis consisted of discussing alternative
measures the government could have utilized to
further its substantial interests. See 573 U.S. at 49096.
The Supreme Court first articulated the
government’s stated interest, then identified other
regulations already in existence “that prohibit[] much
of [the targeted] conduct,” id. at 491, and alternative
regulations the government could enact that would
prohibit the targeted conduct, id. at 491-93. The
Court did not—as the majority here suggests a First
Amendment analysis must—first conclude that the
challenged regulation was substantially broader than
necessary, and then evaluate the availability of less
speech-restrictive alternatives. Rather, the Court
concluded that the challenged regulation was
substantially more broad than necessary because of
the availability of less speech-restrictive alternatives.
Id. at 490-94; accord Verlo I, 820 F.3d at 1135
(“[W]hen considering content-neutral regulations, the
[Supreme] Court itself has examined possible
alternative approaches to achieving the [state’s]
objective to determine whether the [state’s] chosen
approach burdens substantially more speech than
necessary.”).
And in this case, there are numerous alternative
measures Sandy City could have employed to address
the risks associated with people falling off medians
into traffic. For example, Sandy City “might have
considered limiting activity on medians only at night,
when the dark makes it more difficult for drivers to
see.” Cutting v. City of Portland, 802 F.3d 79, 92 (1st
Cir. 2015). Sandy City also could have examined
“pedestrian and vehicle traffic patterns” and limited

75a
the Ordinance to certain times of day when traffic is
busiest or to certain areas where the speed limit is
greatest. Id. at 88. Sandy City did not consider such
limitations.
In addition to narrowing the Ordinance by time of
day or pedestrian and vehicle traffic, Sandy City could
have applied the Ordinance only to those medians
which were the focus of the complaints the City
received. See Aplee. App., Vol. II at 277-341. As
discussed, most of the medians that were the subject
of citizen complaints were within half a mile of each
other and were near on- and off-ramps for Interstate
Highway 15. The City could have limited the
Ordinance to medians in areas that had the most
potential for safety problems.
Sandy City also could have used already-existing
laws to ensure public safety. As in Cutting, the Sandy
City citizen complaints showed that much of the
“danger to drivers and other users of the streets . . .
was tied to concerns about disruptive and inattentive
individuals on median strips.” 802 F.3d at 90.
Specifically, citizens complained that panhandlers
“appeared to be intoxicated or high” or “were having
trouble walking[ and] keeping their balance.” Aplt.
App., Vol. II at 357. This behavior could “be addressed
through existing local ordinances,” McCullen, 573
U.S. at 492, including Sandy City’s statutes against
public intoxication and impeding traffic. Additionally,
some medians can only be illegally accessed by
jaywalking.
By enforcing its laws prohibiting
jaywalking, the City could reduce access to medians
without burdening speech.

76a
“The point is not that [Sandy City] must enact all or
even any of the proposed [alternative approaches].
The point is instead that [the City] has available to it
a variety of approaches that appear capable of serving
its interests, without excluding individuals from areas
historically open for speech and debate.” McCullen,
573 U.S. at 493-94. The Ordinance is not
unconstitutional merely “because there is some
imaginable alternative that might be less burdensome
on speech.” Ward, 491 U.S. at 797. But, “[g]iven the
vital First Amendment interests at stake, it is not
enough for” Sandy City “to simply say that other
approaches” would not work. McCullen, 573 U.S. at
496. Rather, the City must “show[] that it seriously
undertook to address the problem with less intrusive
tools readily available to it,” id. at 494, and that these
or other “alternative measures that burden
substantially less speech would fail to achieve” its
interests, id. at 495. Sandy City has done neither, and
that failure proves that the Ordinance is not narrowly
tailored to achieve the City’s interests.
E
In sum, the evidence the City relies on to show the
requisite First Amendment means-end fit—the
testimony of Johnson and Chapman that they did not
feel safe on certain medians and the twenty-eight
complaints about individuals in medians—is
inadequate to support the City’s decision to ban
sitting or standing on all unpaved medians and all
paved medians narrower than 36 inches throughout
the entire city. And Sandy City has not shown that it
attempted to address its safety concerns through
other, less speech-restrictive alternatives. The City

77a
has not demonstrated that the Ordinance does not
“burden substantially more speech than is necessary
to further the government’s legitimate interests,”
Ward, 491 U.S. at 799, nor has it shown that
“alternative measures that burden substantially less
speech would fail to achieve [its] interests,” McCullen,
573 U.S. at 495. The Ordinance fails intermediate
scrutiny.
II
Because I do not think the Ordinance survives
intermediate scrutiny, I cannot merely assume, as the
majority does, that the affected medians are
traditional public fora. But I do not think that the
City has established as a matter of law that the
affected medians are nonpublic fora. 11 I would
therefore reverse the district court’s grant of summary
judgment to the City and remand.
We distinguish between traditional public,
designated public, and nonpublic fora by looking at:
(1) physical characteristics of the property, including
location, see Frisby v. Schultz, 487 U.S. 474, 480-81
(1988); (2) intended use of the property, see United
Sandy City argues that “Evans has not provided any
evidence that the unsafe medians at issue here are public
forums.” Aplee. Br. at 10. That argument misplaces the burden.
“[W]hen a law infringes on the exercise of First Amendment
rights,” as the Ordinance does, “its proponent,” here, Sandy City,
“bears the burden of establishing its constitutionality.” iMatter
Utah v. Njord, 774 F.3d 1258, 1263 (10th Cir. 2014) (quotation
omitted). Thus, the burden was not on Evans to show the
affected medians are public fora subject to intermediate scrutiny,
but on Sandy City to show either that the medians are nonpublic
fora and the Ordinance survives rational basis review, or the
Ordinance survives intermediate scrutiny.
11

78a
States v. Kokinda, 497 U.S. 720, 727 (1990); and (3)
actual use of the property, see Ark. Educ. Telev.
Comm’n v. Forbes, 523 U.S 666, 676 (1988). “[F]orum
status is a fact-intensive inquiry,” that “should be
focused on the physical characteristics and the
intended and actual use[s] of’ the property. Verlo I,
820 F.3d at 1132, 1139.
As to the physical characteristics of the medians,
the record has photos of “nearly every different type”
of affected median. Aplt. Reply at 4. The photos
reveal that, physically, the affected medians vary
widely. For example, some contain park benches,
memorial plaques, and signs readable only from close
proximity, while others consist only of a narrow strip
of concrete, likely only a few inches in length. Some
medians are landscaped and accessible from
crosswalks, while others are not.
As regards their intended uses, Sandy City claims
“the sole purpose of the unsafe medians is to regulate
automobile traffic, divide lanes, and prevent
automobiles from crossing the centerlane in ways that
would interrupt traffic flow.” Aplee. Br. at 11. This
may, in fact, be the City’s intended use of the affected
medians.
But we have acknowledged that the
government’s intended use does not control the forum
analysis. See First Unitarian Church of Salt Lake
City v. Salt Lake City Corp., 308 F.3d 1114, 1124-26
(10th Cir. 2002) (“We first reject the contention that
the City’s express intention not to create a public
forum controls our analysis. The government cannot
simply declare the First Amendment status of
property regardless of its nature and its public use.”).
Further, the physical characteristics of some medians

79a
undercut the City’s stated intent. For example, if
some medians are park-like and have benches,
“memorial trees,” or “memorial plaques,” those
features might indicate that some of the affected
medians are in fact intended for pedestrian use,
including sitting or standing. Satawa v. Macomb Cty.
Road Comm’n, 689 F.3d 506, 522 (6th Cir. 2012)
(“[T]he record refutes the Board’s contention that,
because Mound Road is a high-volume roadway, the
Board does not want people on the median. If this
were so, it would be strange to provide access to the
median via sidewalk, and to allow various groups to
erect benches, a gazebo, and plaques that could only
be read while standing on the median.”). The City’s
own statement that the affected medians are “largely
accessible only by jaywalking,” Aplee. Br. at 11
(emphasis added), implies that at least some medians
are accessible via crosswalk, which may also indicate
that those medians are intended for standing or
sitting. See Satawa, 689 F.3d at 520 (“The median,
moreover, invites visitors. It contains park benches
and is accessible by sidewalk.”).
Finally, regarding their actual uses, the record
contains evidence that several medians have been
used for protected speech activities. And the record
indicates that Evans has used medians in Sandy City
for speech activities on numerous occasions, both
before and after the City enacted the Ordinance. The
record therefore indicates that at least some of the
affected medians have historically been used as public
fora.
Because the record contains evidence that could
support the conclusion that the affected medians are

80a
public fora, Sandy City has not established as a
matter of law that the affected medians are nonpublic
fora.
III
On the record presented, I would conclude that the
Ordinance does not withstand intermediate scrutiny.
Further, Sandy City has not established as a matter
of law that the medians are nonpublic fora. I would
reverse the district court’s grant of summary
judgment to the City and remand for further
proceedings.
I respectfully dissent.

81a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF UTAH, CENTRAL DIVISION
STEVE RAY EVANS,
Plaintiff,
V.
SANDY CITY, a
municipal corporation;
TIM DOLAN, Mayor of
Sandy City; KEVIN
THACKER, Sandy City
Police Chief; ROBERT
WALL, Sandy City
Attorney; DOUGLAS
JOHNSON and R.
MACKAY HANKS,
Sandy City Prosecutors;
SCOTT COWDELL,
MAREN BARKER,
KRISTIN COLEMANNICHOLL, CHRIS
MCCANDLESS, STEVE
FAIRBANKS, LINDA
MARTINEZ SAVILLE,
STEPHEN P. SMITH,
Sandy City Council
Members; C. TYSON, C.
PINGREE, J. BURNS
and JOHN DOE I-XX,

ORDER GRANTING
DEFENDANTS’
MOTION FOR
SUMMARY
JUDGMENT AND
DENYING
PLAINTIFF’S
MOTION FOR
TEMPORARY
RESTRAINING
ORDER/PRELIMINA
RY INJUNCTION
Case No. 2:17-cv-00408BSJ
Honorable Bruce S.
Jenkins

82a
Sandy City Police
Department,
Defendants.
These matters came before the Court on
Defendants’ Motion for Summary Judgment (Dkt. 44)
(“Motion for Summary Judgment”) and Plaintiff’s
Motion for Temporary Restraining Order/Preliminary
Injunction (Dkt. 40) (“Motion for Preliminary
Injunction”). The Court heard oral argument on the
Motions on August 23, 2017, Angela H. Elmore
appearing on behalf of Plaintiff Steve Ray Evans
(“Evans” or “Plaintiff’), and David C. Reymann and
Michael D. Black appearing on behalf of Defendants
Sandy City, Tom Dolan, Kevin Thacker, Robert Wall,
Douglas Johnson and R. Mackay Hanks, Scott
Cowdell, Maren Barker, Kristin Coleman-Nicholl,
Chris McCandless, Steve Fairbanks, Linda Martinez
Saville, Stephen P. Smith, C. Tyson, C. Pingree, and
J. Burns (collectively, “Sandy City” or “Defendants”).
The Court announced its order in open court, granting
Defendant’s Motion for Summary Judgment and
Denying Plaintiff’s Motion for Preliminary Injunction.
Pursuant to Rule 54-l(a) of the District of Utah Local
Rules, the Court instructed counsel for Defendant to
prepare the order in writing, serve it on opposing
counsel and submit it to the Court for signature
pursuant to section (b). On September 7, 2017, David
C. Reymann submitted a Proposed Order to the Court
on behalf of Defendant. Plaintiff’s counsel Angela H.
Elmore filed an Objection to the Proposed Order on
September 14, 2017, and an Amended Objection on
September 25, 2017.

83a
The Court, having carefully considered the parties’
memoranda and arguments, the law and facts
relevant to the Motions, as well as Plaintiff’s
objections to the Proposed Order, and for the reasons
set forth below, hereby GRANTS the Motion for
Summary Judgment and DENIES the Motion for
Preliminary Injunction.
BACKGROUND AND RELEVANT FACTS
In 2016, Sandy City adopted the following
ordinance: “It shall be illegal for any individual to sit
or stand, in or on any unpaved median, or any median
of less than 36 inches for any period of time.” Sandy
City Code, Article 16, Section 299.22 (“the
Ordinance”). 1 The stated purpose for the City
Council’s adoption of the Ordinance was “public
health, safety and welfare of the City[.]” 2 The
Ordinance applies only to certain medians in Sandy
City and does not apply to Sandy City’s sidewalks,
public parks, or other public property. 3 Roughly 7,000
linear feet of medians in Sandy City are paved and
wider than thirty-six inches, and thus unaffected by
the Ordinance. 4
After the Ordinance became effective, Sandy City
police issued four citations to Evans for violating the
Ordinance. For three of these citations, Evans was
standing on a paved median that was approximately
eighteen inches wide. For the fourth citation, Evans
was standing on an unpaved median at approximately
Dkt. 45-1.
Dkt. 45-3 at Ex. A.
3 Dkt. 45-1.
4 Dkt. 62-3 p. 6.
1
2

84a
10600 South and Auto Mall Drive. 5 It is undisputed
that Evans was violating the Ordinance on each of
these occasions. 6
Evans brought this action challenging the
Ordinance, alleging that the Ordinance violates his
free speech rights under the First Amendment, is
unconstitutionally vague, and violates the Fourteenth
Amendment’s Equal Protection Clause, the Eighth
Amendment’s prohibition on cruel and unusual
punishment, the Dormant Commerce Clause, and
Title VII of the Civil Rights Act. 7 Evans subsequently
filed his Motion for Preliminary Injunction seeking to
enjoin enforcement of the Ordinance. Defendants
opposed the Motion for Preliminary Injunction and
filed their Motion for Summary Judgment. The Court
authorized Evans to take expedited discovery prior to
responding to the Motion for Summary Judgment,
including written discovery and four depositions. 8
Following that discovery and the completion of
Dkt. 41 ¶¶ 7, 9, 11,13; Dkt. 58-1 ¶¶ 31, 33, 35, 37 and Exs. 1A through 1-D thereto; Dkt. 58-9 pp. 11-14, 33, 57¬58, 61; Dkt.
58-6 pp. 27,45; Dkt. 58-7 pp. 19; Dkt. 58-42; Dkt. 58-45.
6 Although Evans attempted, in his motion papers, to assert
that the unpaved median on which he was standing at 10600
South and Auto Mall Drive might be construed as “paved,” the
Court rejects that assertion based on the undisputed
photographic evidence of that median in the record, which shows
that it is covered with various sized rocks, boulders, shrubs, and
trees. See, e.g., Dkt. 62 pp. 12-13; Dkt. 58-42; Dkt. 58-45. The
assertion of Evans’s counsel, in motion papers, that this median
might be considered “paved” is not sufficient to create a genuine
issue of material fact.
7 Dkt. 2. In his responsive papers and at oral argument, Evans
conceded that he had not stated a claim with regard to his Title
VII claim and consented to dismissal of that claim.
8 Dkt. 47.
5

85a
briefing, the Court heard oral argument on both
Motions.
ANALYSIS
Summary judgment should be granted if the
“movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“An issue of fact is genuine if the evidence is such that
a reasonable jury could return a verdict for the nonmoving party on the issue. An issue of fact is material
if under the substantive law it is essential to the
proper disposition of the claim.” Thomas v. Metro.
Life Ins. Co., 631 F.3d 1153,1160 (10th Cir. 2011)
(internal quotation marks omitted) (citing Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986) and Adler
v. Wal-Mart Stores, Inc., 144 F.3d 664, 670 (10th Cir.
1998)). Factual disputes that are irrelevant or
unnecessary will not defeat an otherwise properly
supported motion for summary judgment. Anderson,
477 U.S. at 248. Furthermore, the evidence and its
reasonable inferences are to be viewed in the light
most favorable to the non-moving party. Adler, 144
F.3d at 670.
The undisputed material facts show that the
Ordinance on its face is content neutral, regulates
conduct not speech, does not classify based on any
status, and applies to every person equally. 9 In
addition, the Ordinance applies only to particular
Plaintiff objects that the Court did not specifically make
these findings at the hearing. However, the Court made clear all
of Plaintiff’s claims were dismissed (Hrg Transcript at 75) and
the bases are specified in this order.
9

86a
medians in Sandy City and does not apply at all to
sidewalks, public parks, other public property, or to
private property. Sandy City adopted the Ordinance
out of concerns related to pedestrian and driver
safety. Evans violated the Ordinance by standing on
paved medians that were approximately eighteen
inches wide and on an unpaved median that was a
combination of boulders, rocks, trees, and shrubs.
A.

First Amendment Claims

Evans argues that the Ordinance is overbroad and
violates his right of free speech. A law is overbroad if
it prohibits a substantial amount of protected speech.
Members of City Council of Los Angeles v. Taxpayers
for Vincent, 466 U.S. 789, 801 (1984). Striking down
a law as overbroad is “strong medicine,” United States
v. Williams, 553 U.S. 285, 293 (2008), to be avoided
when possible. Virginia v. Hicks, 539 U.S. 113, 119
(2003) (“There are substantial costs created by the
overbreadth doctrine when it blocks the application of
a law to constitutionally unprotected speech, or
especially to constitutionally unprotected speech.”).
The Ordinance is not overbroad simply because it
prohibits all sitting or standing on the affected
medians. The law governs conduct, not speech, and,
as discussed below, the Ordinance is narrowly tailored
to achieve a substantial governmental interest. 10 Nor
does the Ordinance violate Evans’s free speech rights.
Plaintiff objects that the Court did not specifically make
these findings at the hearing. However, the Court made clear all
of Plaintiff’s claims were dismissed, including the claim under
the First Amendment and the overbreadth claim.
(Hrg
Transcript at 75) The bases for these rulings are specified in this
order.
10

87a
The applicable legal analysis under the First
Amendment depends on the type of forum targeted by
the legislation. Here, the parties dispute whether the
medians are public forums and thus qualify for the
more stringent First Amendment review. The Court
finds the statue valid under even the more stringent
standard and thus upholds the statute without
needing to determine the type of forum at issue.
Under the public forum analysis, “in a public forum
the government may impose reasonable restrictions
on the time, place, or manner of protected speech,
provided the restrictions are justified without
reference to the content of the regulated speech, that
they are narrowly tailored to serve a significant
governmental interest, and that they leave open
ample alternative channels for communication of the
information.” Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989).
The Ordinance is content neutral and does not
directly regulate speech. Instead, it has only an
incidental effect on the speech of individuals who wish
to stand on unpaved or narrow medians. 11 An
incidental effect on speech, without more, is
insufficient to make an Ordinance content-based. “[A]
facially neutral law does not become content based
simply because it may disproportionately affect
speech on certain topics. On the contrary, ‘[a]
regulation that serves purposes unrelated to the
content of expression is deemed neutral, even if it has
Plaintiff objects that the Court did not specifically make
these findings at the hearing. However, the Court made clear all
of Plaintiff’s claims were dismissed, including the claim under
the First Amendment. (Hrg Transcript at 75) The bases for this
ruling are specified in this order.
11

88a
an incidental effect on some speakers or messages but
not others.’” McCullen v. Coakley, 134 S.Ct. 2518,
2531 (2014) (quoting Ward, 491 U.S. at 791); see also
Ward, 491 U.S. at 791 (“Government regulation of
expressive activity is content neutral so long as it is
justified without reference to the content of the
regulated speech.”). Sandy City’s justification for the
Ordinance was public safety. 12 There is little to no
evidence suggesting Sandy City adopted the
Ordinance because of disagreement with the message
panhandlers communicate.
Thus, the evidence
offered by Plaintiff is inadequate to raise a genuine
dispute over the city’s justification for the Ordinance.
The face of the Ordinance, its stated purpose, 13 and
the legislative history 14 establish beyond genuine
dispute that the justification was pedestrian and
driver safety.
The Ordinance is also narrowly tailored to serve the
substantial governmental interest of public safety. 15
Courts generally do not second-guess the reasonable
judgments of a city about the best means of achieving
its goals. See Ward, 491 U.S. at 800; see also Citizens
for Peace in Space v. City of Colorado Springs, 477
F.3d 1212, 1221 (10th Cir. 2007). The Ordinance is
narrowly focused on medians that Sandy City

Dkt. 2-3 at Ex. BBB.
Dkt. 45-1.
14 Dkt. 2-3 at Ex. BBB (city council transcript); Dkt. 58 at Ex.
2 (deposition of Douglas Johnson, city prosecutor).
15 Plaintiff objects that the Court did not specifically make this
finding at the hearing. However, the Court made clear Plaintiff’s
First Amendment claim was dismissed. (Hrg Transcript at 75)
The bases for this ruling are specified throughout this order.
12
13

89a
considered most dangerous. 16
It does not ban
standing or sitting on sidewalks or public parks or
private property. Evans argues that the Ordinance
could have been less restrictive, but “restrictions on
the time, place, or manner of protected speech are not
invalid ‘simply because there is some imaginable
alternative that might be less burdensome on
speech.’” Ward, 491 U.S. at 797 (citation omitted).
The government satisfies the narrow tailoring
requirement when the “‘regulation promotes a
substantial government interest that would be
achieved less effectively absent the regulation.’” Id. at
799 (citation omitted).
The goal of preventing
pedestrians from falling off unsafe medians is
substantial and is promoted by keeping pedestrians
off medians that are narrow and unpaved.
In addition, the Ordinance leaves open ample
alternative channels of communication. Evans may
engage in the same speech he wishes to communicate
from medians not affected by the Ordinance, in public
parks or on sidewalks, or on private property. Evans
asserts that he considers those channels to be
ineffective, by which he means he receives less money
when soliciting from places other than from the
medians affected by the Ordinance. 17 “The First
Amendment,” however, “does not guarantee the right
to communicate one’s views at all times and places or
in any manner that may be desired.” Heffron v. Int’l
Soc’y for Krishna Consciousness, Inc., 452 U.S. 640,

Dkt. 2-3 at Ex. BBB (city council transcript); Dkt. 58 at Ex.
2 (deposition of Douglas Johnson, city prosecutor).
17 Dkt. 58 at Ex. 1-a (deposition of Defendant).
16

90a
649 (1981). Ample alternative chancels exist in Sandy
City for Evans to engage in his speech.
For these reasons, the Ordinance does not violate
the First Amendment. 18
B.

Vagueness Claim

Evans also argues that the Ordinance is
unconstitutionally vague. His claim fails. A law is
only unconstitutionally vague if it “fails to provide a
person of ordinary intelligence fair notice of what is
prohibited, or is so standardless that it authorizes or
encourages seriously discriminatory enforcement.”
Williams, 553 U.S. at 304. All laws require some
measure of interpretation or discretion, but that does
not render them unconstitutionally vague. Grayned
v. City of Rockford, 408 U.S. 104, 110 (1972)
(“Condemned to the use of words, we can never expect
mathematical certainty in our language”).
The
Ordinance here provides enough certainty and clarity
with regard to the conduct it prohibits to survive a
vagueness challenge. 19

The parties dispute whether the medians are public forums
under First Amendment jurisprudence. The Court need not
decide this issue because the Ordinance is valid under the First
Amendment in either case.
19 See Hrg Transcript at 75. (“[I]t conveys a sufficient degree of
particularity [of] the subject matter involved.”)
18

91a
C.

Additional Constitutional Claims

Evans’s remaining constitutional claims based on
the Fourteenth and Eighth Amendments and the
Dormant Commerce Clause are without merit. 20
Under the Fourteenth Amendment’s Equal
Protection Clause, the Ordinance is subjected to
rational basis review. A law “must be upheld against
equal protection challenge if there is any reasonably
conceivable state of facts that could provide a rational
basis for the classification.” Heller v. Doe, 509 U.S.
312, 320 (1992). The Ordinance easily meets this test
as its justification is public safety, which is a
legitimate interest and is supported by the record.
Furthermore, because the Ordinance is supported by
an independent rational basis (public safety), Evans’s
allegations of animus are insufficient to invalidate the
law. 21 See Romer v. Evans, 517 U.S. 620, 632 (1996)
(law must be “so discontinuous with the reasons
offered for it that [it] seems inexplicable by anything
but animus towards the class it affects”); Wasatch
Equality v. Alta Ski Lifts Co., 55 F. Supp. 3d 1351,
1360 (D. Utah 2014) (“In other words, if there is an
independent basis (other than animus) to support a
finding of rational basis it does not matter for Equal
Plaintiff objects that the Court did not specifically rule on
any Constitutional challenges outside of the First Amendment at
the hearing. This is a misinterpretation of the Courts language,
which considers and rejects Plaintiff’s Constitutional claims in
their entirety. Hrg Transcript at 75.
21 Plaintiff objects that the Court did not specifically make any
findings on Evans’ animus claim, at the hearing. However, the
Court dismissed Evans’ claims in their entirety, including the
Equal Protection claim, (Hrg Transcript at 75) and this order
specifies the bases.
20

92a
Protection Clause analysis purposes that animus may
also have influenced the decision.”), aff’d, 820 F.3d
381 (10th Cir. 2016).
Evans’s claim under the Eight Amendment is based
on the assertion that the Ordinance criminalizes the
status of being homeless, relying on Robinson v.
California, 370 U.S. 660 (1962). The Ordinance,
however, does not criminalize status; it only regulates
conduct. As such, the Ordinance does not violate the
Eighth Amendment. See Powell v. Texas, 392 U.S.
514, 531-532 (1968) (plurality opinion)).
Finally, Evans’s Dormant Commerce Clause claim
finds no support in the law. The Ordinance does not
distinguish between in-staters or out-of-staters and is
therefore presumptively valid. United Haulers Ass’n
Inc. v. Oneida-Herkimer Solid Waste Mgmt. Auth.,
550 U.S. 330, 338, 346 (2007). A non-discriminatory
law is valid unless the challenging party can show
that “the burden imposed on [interstate] commerce is
clearly excessive in relation to the putative local
benefits.” Id. at 346; see also Kleinsmith v. Shurtleff,
571 F.3d 1033,1040 (10th Cir. 2009). Evans has
produced no evidence that the Ordinance has any
effect on interstate commerce, much less evidence
that it imposes a burden clearly excessive in relation
to the safety benefits of the Ordinance.
For all of these reasons, Defendants are entitled to
summary judgment dismissing each of Evans’s claims
with prejudice.

93a
D. Motion for Preliminary Injunction
“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits[.]”
Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7,
20 (2008). Because the Court has concluded that
Defendants are entitled to summary judgment
dismissing each of Evans’s claims, Evans cannot
satisfy this requirement.
ORDER
Based on the foregoing, IT IS ORDERED that the
Motion for Summary Judgment (Dkt. 44) is
GRANTED the Motion for Preliminary Injunction
(Dkt. 40) is DENIED. All of Plaintiff’s claims against
Defendants are hereby dismissed with prejudice and
on the merits.

.,.,._

DATED this _LL_ day of oc:¼t,~cr ,201 7.

